No. 20-549
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
JOHN FARROW and JEROME WADE,
Petitioners,
v.
CONTRA COSTA COUNTY,
Respondent,
________________________
On Petition for a Writ of Certiorari
To the Ninth Circuit Court of Appeals
________________________
OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI
________________________
SHARON L. ANDERSON
County Counsel
D. CAMERON BAKER*
Counsel of Record
SEAN M. RODRIQUEZ
Deputy County Counsel
1025 Escobar Street, 3rd Floor
Martinez, CA 94553
Telephone: (925) 655-2280
Attorneys for Respondent Contra Costa County

i
QUESTIONS PRESENTED
In this pre-certification class action,
Petitioners John Farrow and Jerome Wade seek to
raise three questions arising from a brief delay in
their appointment of counsel in California criminal
proceedings. Because Petitioners’ Questions
Presented do not accurately reflect the record below,
Respondent Contra Costa County identifies the
relevant questions presented as:

1.
Should the Court address Petitioners’
Sixth Amendment “critical stage” argument where
a) the Ninth Circuit held that Petitioners waived
that argument, b) the district court correctly held
that this argument was barred by Heck v. Humphrey,
512 U.S. 477 (1994), in light of this Court’s holdings
in United States v. Cronic, 466 U.S. 648 (1984), and
other cases that denial of counsel during a “critical
stage” requires reversal of a conviction, and c)
Farrow’s claim is barred by collateral estoppel?
2.
Assuming arguendo Petitioners could
assert a Sixth Amendment “critical stage” argument
here, should the Court address that argument where
resolution of that issue depends on case-specific facts
and applicable state law, there are no opinions from
this Court or any circuit courts supporting
Petitioners’ position, and the practice at issue ceased
in 2013?
3.
Should the Court grant certiorari in
order to formulate a nationwide standard regarding

ii
the timing of appointment of counsel after
attachment, where the evidentiary record in this
case is insufficient to set such a standard and there
are no circuit court decisions promulgating such a
standard, much less a dispute between the circuits as
to the applicable standard?
4.
Should the Court reverse the Ninth
Circuit’s dismissal of Petitioners’ Due Process claim,
where the dismissal is dependent on case-specific
facts and applicable state law, does not conflict with
either this Court’s decisions or decisions from other
circuits, and the practice at issue, which ceased in
2013, did not result in any violation of Petitioners’
state speedy trial rights, which was the sole basis for
the alleged violation of due process?
5.
Should the Court reverse the Ninth
Circuit’s dismissal of Petitioners’ Equal Protection
claim, where the dismissal is dependent on casespecific facts and applicable state law, there is no
Circuit split on this issue and the County’s alleged
policy, which ceased in 2013, did not discriminate
between indigent and non-indigent criminal
defendants?
6.
Is there any reason for this Court to
exercise its supervisory powers in this case to correct
four alleged errors by the Ninth Circuit and the
district court, where none of the claimed errors are
significant or noteworthy?

iii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
Petitioners, who were Plaintiffs/Appellants
below, are two private individuals, John Farrow and
Jerome Wade.
Respondent, who was Defendant/Appellee below,
is Contra Costa County.

iv
TABLE OF CONTENTS

QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . i

PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . iii

TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi

I. INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

STATEMENT OF THE CASE. . . . . . . . . . . . . 7

III.

LEGAL ARGUMENT. . . . . . . . . . . . . . . . . . . 17
A.

The Court Should Not Adjudicate
Whether Petitioners’ Initial Appearance
in State Court Was a Critical Stage
Under the Sixth Amendment. . . . . . . 18

B.

The Court Should Not and Cannot
Fashion a Broad Ruling Respecting the
Timing of Appointment of Counsel
Required by the Sixth Amendment.. . 27

v

IV.

C.

Petitioners Present No Basis For this
Court to Review Dismissal of Their
Due Process and Equal Protection
Claims. . . . . . . . . . . . . . . . . . . . . . . . . 30

D.

There is No Reason for this Court to
Exercise Its Supervisory Powers.. . . . 33

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . 35

SUPPLEMENTAL APPENDIX A. . . . . . . . . . . . . . 37

vi
TABLE OF AUTHORITIES
Cases
Boag v. MacDougall, 454 U.S. 364 (1982). . . . 2, 6, 34
Booth v. Galveston Cty., 352 F. Supp. 3d. 718
(S.D. Tex. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
California v. Taylor, 353 U.S. 553 (1957). . . . . 18, 19
Coleman v. Alabama, 399 U.S. 1 (1970).. . . . . . . . . 24
Cutter v. Wilkinson, 544 U.S. 709 (2005). . . . . . . . . 19
DeWolfe v. Richmond, 434 Md. 444 (2013).

. . . . . . . . . . . . 23

FCC v. Fox TV Stations, Inc., 556
U.S. 502 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 27
Gonzalez v. Comm’r of Corrections, 308 Conn.
463 (2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Greenwood v. FAA, 28 F.3d 971 (9th Cir. 1994). . . 19
Hamilton v. Alabama, 368 U.S. 52 (1961). . . . . . . . 23
Heck v. Humphrey, 512 U.S. 477 (1994).. . . . . . . . . 14
Hurrell-Harring v. State of New York,
15 N.Y.3d 8 (2010).. . . . . . . . . . . . . . . . . . . . . . . . . . 23
Kuren v. Luzerne Cnty., 146 A.3d 715 (2016).. . . . . 23

vii
ODonnell v. Harris Cty., 892 F.3d 147
(5th Cir. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Rothgery v. Gillespie Cty., Texas,
554 U.S. 191 (2008). . . . . . . . . . . . . . . . . . . . . . . . 4, 26
Smith v. Lockhart, 923 F.2d 1314
(8th Cir. 1991). . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
United States v. Mendoza-Cecelia, 963 F.2d 1467
(11th Cir. 1992). . . . . . . . . . . . . . . . . . . . . . . . . . 21, 25
United States v. Portillo, 969 F.3d 144
(5th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 25
Walker v. City of Calhoun, 901 F.3d 1245
(11th Cir. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Statutes and Rules
California Penal Code Section 859b. . . . . . . . . . . . . 30
California Penal Code Section 988. . . . . . . . . . . 12, 21
Federal Rule of Appellate Procedure 28.. . . . . . . . . 19

1
I. INTRODUCTION
This case is not a suitable vehicle for
addressing the broad constitutional issues posited by
Petitioners. Indeed, in many respects, it is hard to
imagine a less suitable vehicle. Consequently, the
Court should deny the Petition.
Before addressing the reasons for not granting
certiorari as to the specific issues in this case, it is
important to set out the narrowness of this litigation.
Because the district court never certified a class, this
litigation involves only two individual plaintiffs who
suffered a short delay in appointment of counsel
(respectively twelve days and four days) and a
practice that ended in 2013. Consequently, while not
technically moot because Petitioners can still seek
monetary damages, it is effectively moot with respect
to any injunctive and declaratory relief. Further,
Petitioners have disclaimed any prejudice to their
criminal proceedings as a result of not having
counsel at their initial appearances, contending that
the alleged violation of their Sixth Amendment right
to counsel was harmless error and seeking only

2
nominal damages. Finally, Petitioners, both of
whom were charged with felonies, do not claim to
have suffered any unnecessary detention as the
result of not having counsel at their first
appearances. Thus, this litigation does not present
the concern raised by Senator Grassley regarding
unrepresented misdemeanor defendants having to
choose between pleading guilty and being released or
asserting their Sixth Amendment right to
representation by counsel and staying in jail. These
considerations alone demonstrate that this litigation
does not warrant certiorari. Boag v. MacDougall,
454 U.S. 364, 366 (1982) (O’Connor, J., concurring)
(the effectiveness of the Supreme Court depends on
its “declining to expend limited judicial resources on
cases . . . whose significance is limited to the
parties.”).
However, there is more. In addition to the
foregoing, denial of certiorari is appropriate in light
of the specific legal issues posed by Petitioners and
this litigation. These additional reasons for not
granting certiorari are most apparent when

3
considering Petitioners’ central claim, that their
initial appearances in state criminal court were
“critical stages” for purposes of the Sixth
Amendment. This central claim is not clean, but
subject to three separate preliminary bars to
adjudication.
First and foremost, as the Ninth Circuit held,
Petitioners waived this argument below by not
challenging the district court’s rejection of that claim
under Heck. Second, putting waiver aside, this
particular claim is, in fact, barred by Heck in light of
this Court’s holding in Cronic and other cases that
the absence of counsel at a critical stage is per se
reversible error. Third, Farrow’s entire Sixth
Amendment claim is barred due to collateral
estoppel as a result of the state court’s holding that
his rights at the initial appearance were not violated.
In addition to these three preliminary issues,
there are two jurisprudential reasons why the Court
should not grant certiorari as to this issue. The first
is that resolution of this claim in this case involves
the peculiarities of California criminal law and a

4
unique fact pattern arising from a practice that
ended in 2013. The second is that there are no
conflicting opinions between the Ninth Circuit and
any of the other circuits, or even the cited state high
court decisions, that warrant this Court’s
intervention.
Similar considerations warrant denying
certiorari as to the second constitutional issue
posited by Petitioners, whether this Court should
establish a nationwide standard for determining
when, for purposes of the Sixth Amendment, counsel
must be appointed after attachment. Petitioners
seek some “bright-line” standard establishing a
violation of the Sixth Amendment if counsel is not
provided within a specified time period after
attachment. As the district court noted, the
evidentiary record in this case is inadequate to set
such a standard. Further, although this Court in
2008 left this issue unresolved in Rothgery v.
Gillespie Cty., Texas, 554 U.S. 191 (2008), no circuit
court has yet announced such a standard, which
reflects the underlying reality that this issue only

5
rarely comes up and is not yet sufficiently crystalized
for this Court’s intervention. FCC v. Fox TV
Stations, Inc., 556 U.S. 502, 529 (2009) (declining to
consider constitutional issues without a lower court
opinion). In sum, this Court would be addressing
this issue without an adequate evidentiary record
and without prior consideration of this issue by any
circuit court.
There are equally significant reasons to deny
Petitioners’ request that this Court establish a
nationwide standard for appointment of counsel
under the Due Process and Equal Protection clauses.
The Due Process claim was dismissed due to
Petitioners’ failure to allege a violation of
California’s speedy trial statutes, the basis for this
claim. Consequently, even if Petitioners could
establish such a violation, which they cannot, this
Court’s decision would have limited impact and
would not resolve any critical issues. The Equal
Protection claim was dismissed because Petitioners
showed no impact of the former policy on a criminal
defendant’s ability to defend against the criminal

6
charges and because that practice applied to all
individuals eligible for representation by the Public
Defender, i.e., did not discriminate between different
categories. Notably, the cases cited by Petitioners on
this claim involve a) judicial officers as defendants
and b) the setting of bail by those defendants as to
both indigent and wealthy defendants. This
litigation involves neither.
Petitioners’ last question presented is in the
nature of a legal “smorgasbord” positing four
disparate alleged “errors” made by the Ninth Circuit
and the district court in this case. Petitioners
establish no basis for this Court to exercise its
supervisory authority with respect to these errors.
Petitioners do not claim that these issues are the
subject of a circuit split or are otherwise noteworthy.
See Boag, 454 U.S. at 366 (1982) (O’Connor, J.,
concurring) (the effectiveness of the Supreme Court
depends on its “declining to expend limited judicial
resources on cases . . . whose significance is limited
to the parties.”). And Petitioners do not show that
there was actual error as to those issues, all of which

7
concern mundane procedural questions, much less
any error having such broad import as to warrant
this Court’s intervention.
Respondent Contra Costa County (the
“County”) addresses these and other issues in greater
depth below.
II.

STATEMENT OF THE CASE
Petitioners’ summary of the factual and

procedural background of this case omits key facts
and mischaracterizes other facts. Consequently, the
County submits the following summary drawn from
the district court’s opinion granting summary
judgment to the County. See Pet., App. B at 6a-47a.
Both Farrow and Wade made initial
appearances in state criminal court in 2011. Id. at
28a, 31a. At that time, due to funding issues, the
Contra Costa County Public Defender’s Office did not
staff the initial appearance calendar. Id. at 20a.
That practice changed effective January 9, 2013 with
one minor exception not applicable here.1 Id. at 24a.
1

At some point, some state judges at the Richmond,
California courthouse were not permitting the Public Defender
to represent out-of-custody misdemeanor defendants at their

8
The change was initiated by Public Defender Robin
Lipetzky prior to the initiation of this litigation. See
id. at 23a.
At the initial appearances occurring in 2011,
the state court judge would advise the defendant of
the charges, inquire whether s/he wished to have an
attorney appointed and if s/he could afford an
attorney. Id. at 20a. If the defendant requested the
appointment of an attorney and stated that s/he
could not afford an attorney, the state court judge
would continue the proceedings, set bail pursuant to
the bail schedule, refer the defendant to the Public
Defender’s Office, and set a “counsel and plea”
hearing. Id. The timing of the second appearance
would depend on the judge and courthouse, but
would be no more than two weeks after the initial
appearance. Id. For reasons unknown, Farrow’s
counsel and plea date was set 13 days after his

initial appearance despite the Public Defender’s attempts to do
so. Id. at 24a, n. 8. Because neither Farrow nor Wade
appeared in that courthouse, and the specific state court judges
are not defendants in this litigation, this exception is not at
issue. Id.

9
initial appearance while Wade’s counsel and plea
date was set seven days after his initial appearance.
Id. at 28a, 31a.
Farrow’s initial appearance occurred on
Friday, September 2, 2011. Pet., App. B at 28a. The
state court set his bail at $106,000 and scheduled his
counsel and plea hearing for Thursday, September
15. Id. On Tuesday, September 6, 2011, the first
business day after September 2, a Public Defender
paralegal interviewed Farrow to assess his financial
eligibility for representation by that office and to
determine whether there were any urgent issues in
his case. Id. Neither Farrow’s referral packet nor
his interview revealed any urgent issues. Id. at 29a.
After this interview, Public Defender Robin Lipetzky
determined that representation of Farrow would
result in a conflict of interest for the main Public
Defender Office and the Alternate Defender’s Office
(“ADO”) due to excessive case loads and referred his
case to the conflicts panel on September 14. Id. Mr.
Martin, counsel of record for Petitioners in this case,
was appointed to represent Farrow on September 14,

10
i.e. the day before the “counsel and plea” hearing.
Id. Martin took no actions related to the case on that
day. Id.
On September 15, Martin met with Farrow
before the hearing. Id. They discussed bail issues
and Farrow’s lack of representation at the initial
appearance. Id. At the hearing, Martin did not
challenge the amount of Farrow’s bail, but did object
to Farrow’s lack of legal representation at the initial
appearance as prejudicial. Id. at 30a. The state
court judge denied the objection and held that
Farrow’s rights had not been violated “in any way.”
Id.
Following further proceedings, where Martin
represented Farrow, including a preliminary
hearing, Farrow pled guilty and was sentenced to
270 days in jail. Id. at 30a-31a.
Wade’s initial appearance occurred on
Monday, November 14, 2011. Id. at 31a. At the
hearing, the state court set bail at $4,350,000 and
scheduled the counsel and plea hearing for
November 21, i.e. a week later. Id. Due to conflicts

11
of interest arising from concurrent representation of
Wade’s co-defendants, the Public Defender’s Office
and the ADO declined to represent Wade on
November 17 and 18 respectively. Id. Wade’s case
was referred to the conflicts panel on November 18.
Id. That same day, the panel contacted Martin, who
began working on the case that day. Id. at 32a. On
Saturday, November 19, Martin interviewed Wade.
Id.
Martin appeared at Wade’s counsel and plea
hearing. Id. At that hearing, Martin did not seek
any change to the amount of Wade’s bail. Id.
Following further proceedings, where Martin
represented Wade, Wade pled guilty in December
2012 and was credited with time served. Id. at 33a.
Petitioners filed this putative class action on
December 21, 2012. The district court never certified
a class and the case proceeded solely on Petitioners’
individual claims. Pet., App. B at 5a. The initial
complaint asserted, inter alia, two Section 1983
claims against Lipetzky in her official capacity: a) a
Sixth Amendment claim based on violation of

12
Petitioners’ right to counsel; and b) a Due Process
claim based on violation of their speedy trial rights
under state law. See Pet., App. G at 211a-260a.
The district court dismissed these claims with
leave to amend. In its order, the district court held,
inter alia, that: a) the initial appearances were not
“arraignments” under California law, specifically
California Penal Code section 988, and were not
“critical stages” under the Sixth Amendment;
b) Petitioners alleged no actual prejudice to their
criminal cases due to the absence of counsel at the
initial appearances; and c) there was no violation of
their state speedy trial rights. Id.
Petitioners filed an amended complaint that
asserted, inter alia, the same two Section 1983
claims and a new Section 1983 Equal Protection
claim based on alleged discrimination against
indigent defendants. Lipetzky again moved to
dismiss. The district court granted the motion and
dismissed the Due Process and Equal Protection
claims and Farrow’s Sixth Amendment claim
without leave to amend, while giving Wade further

13
leave to amend his Sixth Amendment claim. See
Pet., App. F at 155a-210a. The district court again
concluded that the initial appearances were not
critical stages and that Petitioners had alleged no
actual prejudice to their criminal cases. Id. at 193a198a. It also considered and rejected the argument
that the waiting period was a “critical stage.” Id. at
195a. When Wade elected not to file a further
amended complaint, the district court granted
judgment in favor of Lipetzky.
On appeal, the Ninth Circuit affirmed the
dismissal of the Due Process and Equal Protection
claims as well as the district court’s holding that the
initial appearances were not “critical stages” under
the Sixth Amendment. Pet., App. E at 149a-154a.
However, it reversed the district court’s dismissal of
the Sixth Amendment claim on the grounds that it
had erroneously required Petitioners to establish
actual prejudice to their criminal cases, and
remanded the issue of whether the appointment of
counsel took place within a reasonable time after

14
attachment in conformance with Rothgery.2 Id. at
151a.
Following remand, Lipetzky again moved to
dismiss, asserting, inter alia, that Petitioners’ Sixth
Amendment claim was barred under Heck v.
Humphrey, 512 U.S. 477 (1994). The district court
agreed that Heck barred any Sixth Amendment
claim based on the initial appearances being “critical
stages.”
Assuming for the sake of argument that
Plaintiffs are correct that their first
appearances were critical stages based on
their rights to enter pleas, then
Hamilton, White, and Cronic all indicate
that failure to provide counsel at that
appearance would be structural error
requiring per se reversal. Success on this
theory would necessarily imply the
invalidity of Plaintiffs’ convictions, and to
the extent that Plaintiffs’ § 1983 claim
relies on that theory, it must therefore be
dismissed under Heck.
Pet., App. C at 132a. However, the district court
rejected Lipetzky’s argument that Heck also barred

2

Lipetzy petitioned this Court to grant a writ of
certiorari. The Court denied this petition. Pet., App. D at 148a.

15
the Sixth Amendment claim to the extent that it was
based on the assertion that counsel was not
appointed within a reasonable time after attachment
at the initial appearance because such a claim would
not necessarily invalidate Petitioners’ convictions.
Id. at 136a. Shortly after this, the parties stipulated
to the substitution of the County as the defendant.
After discovery, the parties filed cross-motions
for summary judgment. Petitioners proffered expert
testimony from Professor Robert Boruchowitz; the
County proffered expert testimony from Henry
Coker, a former San Diego County Public Defender.
The district court granted summary judgment to the
County on the Sixth Amendment claim and
dismissed the remaining state law claim for lack of
subject matter jurisdiction. Pet., App. B at 94a. The
district court rejected the contention that the
County’s prior practice was facially invalid under
Rothgery because a) both Rothgery and the Ninth
Circuit’s prior decision in this case hold that counsel
does not need to be appointed at the initial
appearance, but only within a “reasonable time”

16
after attachment, which occurred at the initial
appearance and b) Petitioners failed to provide a
sufficient evidentiary record for the court to set a
hard absolute rule regarding the timing of
appointment of counsel. Id. at 74a-80a & n.16. The
district court then held that both Petitioners received
counsel within a reasonable time after the initial
appearance. It noted that both received counsel
(Martin) with sufficient time for Martin to prepare
for the second “counsel and plea” appearance based
on Professor Boruchowitz’s testimony and that the
new “better” practice proffered by Petitioners
provided less time to prepare than Martin actually
had. Id. at 86a-87a. It also noted specific facts
applicable to the individual Petitioners that
supported the reasonableness of the timing of
appointment. For Farrow, it found that the
paralegal interview was adequate to discover any
issues in his case requiring attention of counsel. Id.
at 90a-92a. For Wade, it found that a four day delay
in appointment was reasonable in light of the

17
multiple conflicts of interest posed by representation
of Wade and his co-defendants. Id. at 87a-89a.
Petitioners again appealed to the Ninth
Circuit. In a short, unpublished Memorandum
Opinion, the Ninth Circuit denied the appeal,
holding that: 1) Petitioners waived their “critical
stage” claim by failing to challenge the district
court’s holding that Heck barred their critical stage
claim in their opening brief; 2) Petitioners did not
establish the district court erred in holding that
there was insufficient evidence to show a facial
violation by the County of the Sixth Amendment;
and 3) Petitioners did not challenge the district
court’s finding that there was no Sixth Amendment
violation as to their own cases. Pet., App. A at 2a-3a.
III. LEGAL ARGUMENT
This Court should deny the petition. Simply
put, this case does not provide a suitable vehicle for
this Court to address the constitutional issues posed
by Petitioners and there is no reason for this Court
to exercise its supervisory powers.

18
A.

The Court Should Not Adjudicate
Whether Petitioners’ Initial
Appearance in State Court Was a
Critical Stage Under the Sixth
Amendment

The primary issue raised by the petition is
whether Petitioners’ initial appearances were critical
stages under the Sixth Amendment. The Court
should decline to review this issue for several
reasons.
First and foremost, Petitioners waived this
issue below. As Petitioners concede, the Ninth
Circuit held that they waived their critical stage
argument due to a failure to challenge the district
court’s dismissal of that argument under Heck in
their opening brief. Pet. at 12; see Pet., App. A at
2a. Consequently, the Ninth Circuit did not
consider that argument in its last decision. As this
Court has previously held, that is the end of the
story; this Court does not address arguments that
the court below held were waived. California v.
Taylor, 353 U.S. 553, 556 n.2 (1957) (not recognizing
contention that the court below deemed waived); see

19
also Cutter v. Wilkinson, 544 U.S. 709, 718 n. 7
(2005) (declining to address contention that the court
below did not address).
Petitioners contend that the Ninth Circuit
erred in finding waiver. However, their opening
brief to that court did not include any discussion of
the district court’s Heck ruling in their “Statement of
Issues Presented,” “Summary of Argument” or
“Argument” sections. See Supplemental Appendix
(“Supp.App.”) A hereto at 1-5, 50-71. Petitioners did
discuss that ruling in their background section and
in their section requesting re-assignment on remand.
See id. at 8, 74-75. This is insufficient. Greenwood
v. FAA, 28 F.3d 971, 977 (9th Cir. 1994); see also
Fed. Rule App. Procedure 28.
Having waived their critical stage argument
below, Petitioners cannot now attempt to raise it
here. Taylor, 353 U.S. at 556 n.2.
Second, as the district court held, Heck bars
their critical stage argument. This Court’s decisions
in “Hamilton, White, and Cronic all indicate that
failure to provide counsel at that appearance would

20
be structural error requiring per se reversal. Success
on this theory would necessarily imply the invalidity
of Plaintiffs’ convictions, and to the extent that
Plaintiffs’ § 1983 claim relies on that theory, it must
therefore be dismissed under Heck.” Pet., App. C at
132a.
Notably, while the petition discusses the Heck
bar as an issue to be resolved, it contains no
authority supporting the contention that Heck does
not bar their critical stage argument. See Pet. at 39.
To be blunt, Petitioners present no real argument
regarding Heck whatsoever. Id.
Third, in addition to these hurdles, Farrow’s
entire Sixth Amendment claim is barred by
collateral estoppel. As noted above, the state court
expressly denied his current attorney’s objection to
the denial of counsel at the initial appearance. See
Pet., App. B at 30a, 54a.
Fourth, even if Petitioners could surmount
these preliminary hurdles, which they cannot, this
Court should decline to adjudicate this issue for
jurisprudential reasons. Contrary to Petitioners’

21
rhetoric, this is not an issue of significant import.
There is no circuit split on this issue; to the contrary,
the few circuit decisions addressing this issue are
consistent with the County’s position. See United
States v. Portillo, 969 F.3d 144, 161 (5th Cir. 2020);
United States v. Mendoza-Cecelia, 963 F.2d 1467,
1473 (11th Cir. 1992); see also Pet., App. E at 152a153a (Ninth Circuit opinion in this case). And
Petitioners’ citation of Senator Grassley’s statement
is misplaced because this case does not implicate the
issue of unrepresented misdemeanant defendants
being pressured to plead guilty or of unnecessary
pretrial detention. See Pet., App. B at 42a, 44a.
Further, any adjudication of this issue based
on this case would necessarily be narrow. As noted
above, Petitioners were not “arraigned” under
California law at their initial appearances because
they were not asked how they pled. Pet., App. G at
234a (quoting Cal. Penal Code § 988). Instead, their
arraignments were “bifurcated” and only completed
during their second appearance when with counsel,
they were asked how they pled. Id.; see also Pet.,

22
App. F at 186a. This presents a unique (and no
longer extant) procedural context for this claim.
And because Petitioners were not asked to
enter a plea at their initial appearances, in order to
concoct a claim that their initial appearances were
critical stage, Petitioners must perforce assert that
California law required that they be given the
opportunity to enter a plea during those initial
appearances. Pet. at 19 n.2; see also Pet., App. C at
132a & n. 13, 141a-142a. This dependence on
California state law further narrows the applicability
of any ruling by this Court.
Finally, lest it be forgotten, Petitioners are
wrong on the merits of their “critical stage”
argument. California law does not mandate that
they be permitted to enter a plea at their initial
appearances as opposed to the second appearance.
Indeed, as the district court noted, Petitioners have
never cited any authority in support of their
contention. See Pet., App. E at 141a-142a. Not
surprisingly, they again fail to do so here. See Pet.
at 35 (citing state case for proposition that the state

23
court must afford the defendant the right to plea at
the arraignment). Even if California law were to the
contrary, Petitioners still could not establish that
their initial appearances were critical stages because
nothing happened at those appearances - the absence
of counsel did not deprive Petitioners of any rights or
have any impact on their criminal cases. Hamilton
v. Alabama, 368 U.S. 52, 54 (1961); see also Pet.,
App. E at 152a.
Notably, only one case out of the multitude
cited by Petitioners3 helps their cause on this issue,
the district court opinion in Booth v. Galveston Cty.,
352 F. Supp. 3d. 718 (S.D. Tex. 2018). In that case,
the district court held the plaintiff’s initial

3

The remainder of the federal cases cited by
Petitioners do not involve determination of whether the initial
appearance was a critical stage under the Sixth Amendment.
And the state court cases cited by Petitioners are
distinguishable. See Pet., App. G at 237a-240a (distinguishing
Hurrell-Harring v. State of New York, 15 N.Y.3d 8 (2010),
DeWolfe v. Richmond, 434 Md. 444 (2013)); Gonzalez v. Comm’r
of Corrections, 308 Conn. 463, 481-82 (2013) (absence of counsel
at initial appearance resulted in loss of right under Connecticut
law); Kuren v. Luzerne Cnty., 146 A.3d 715, 743, 746-48 (2016)
(basing Sixth Amendment violation of “widespread, systematic
and construction denial of counsel” due to “deficiencies in
funding and resources provided by the county”).

24
appearance was a critical stage because the state
court set bail at that appearance. 352 F. Supp. 3d at
726. The district court opined “that based on
longstanding precedent, the Supreme Court would
undoubtedly conclude that a pretrial detention
hearing is a ‘critical stage’ for Sixth Amendment
purposes.” Id. at 739 (citing Coleman v. Alabama,
399 U.S. 1, 9-10 (1970)); Smith v. Lockhart, 923 F.2d
1314 , 1319 (8th Cir. 1991). But neither Coleman
nor Smith supports the proposition that bail setting
pursuant to a schedule, which is what happened in
Petitioners’ cases, as opposed to a bail reduction
motion, is a critical stage.
In Coleman, this Court held that preliminary
hearings in Alabama state court were critical stages
for four separate reasons, the last of which was that
counsel could also effectively argue “on such matters
as the necessity for an early psychiatric examination
or bail.” 399 U.S. at 9-10. Thus, counsel’s ability to
make bail arguments was only a part of one of four
reasons why this Court determined an Alabama
preliminary hearing was a critical stage. Further to

25
the point, Coleman addressed the need for counsel in
the context of a bail reduction motion, not the setting
of bail pursuant to a bail schedule. See id.; see also
Smith v. Lockhart, 923 F.2d at 1319 (citing Coleman
for the proposition that “the Supreme Court has
recognized the special role played by counsel at
preliminary hearings in which bail reduction motions
are considered”).
Smith is likewise inapposite. In that case, the
Eighth Circuit addressed the need for counsel at an
“omnibus” hearing, which considered several motions
filed by the pro se defendant and at which “defenses
and motions” can be waived if not asserted then.
923 F.2d at 1319.
Perhaps more significantly, Booth is
inconsistent with, and contrary to, the Fifth Circuit’s
decisions holding that setting bail does not render a
hearing “critical” for purposes of the Sixth
Amendment. See, e.g., Mendoza-Cecilia, 963 F.2d at
1473 (initial hearing where court set bail was
“largely administrative” and not critical); Portillo,
969 F.3d at 161 (initial appearance where court

26
announced government intention to hold defendant
without bail was not critical stage). In light of these
Fifth Circuit rulings,4 it is unlikely that the Fifth
Circuit would adopt Booth’s critical stage analysis.
As a final gasp, Petitioners request that this
Court fashion a new critical stage analysis. Rather
than utilize the traditional standard of assessing a
Sixth Amendment violation based on the impact on
the criminal defense, i.e. prejudice to that defense,
Petitioners seek to have this Court extend the
critical stage analysis to whether the delay in
counsel could result in unnecessary pretrial
detention. See Pet. at 26. This Court has
consistently declined to extend the Sixth
Amendment’s protections to harms unrelated to the
defense. It declined to do so in Rothgery. Notably, in
that case, Justice Alito made this point expressly in
his concurring opinion. Rothgery, 554 U.S at 218
(Alito, J., concurring). And in this case, Petitioners
have no basis to claim that they suffered any
4

The Ninth Circuit’s initial decision in this case is
consistent with the Fifth Circuit’s decisions. Pet., App. E at
152a (setting of bail is not critical stage).

27
unnecessary pretrial detention. See Pet., App. B at
42a, 44a.
For all of the foregoing reasons, the Court
should decline to consider Petitioners’ critical stage
argument.
B.

The Court Should Not and Cannot
Fashion a Broad Ruling Respecting
the Timing of Appointment of
Counsel Required by the Sixth
Amendment

The Court should also decline to adjudicate
the issue of when under the Sixth Amendment
counsel must be appointed after attachment.
Although this Court expressly left this issue
unresolved in Rothgery, nothing has occurred in the
interim to warrant the Court addressing that issue
now. There are no circuit decisions establishing any
standards as to this issue, much less any split
between the circuits. The Court should decline to
address this constitutional issue in the absence of
lower court opinions. Fox TV Stations, 556 U.S. at
760. And even if the Court was inclined to address
that issue, this case is not a suitable vehicle to do so.

28
Petitioners fault the Ninth Circuit for not
setting forth a bright line mandatory standard
regarding the timing of appointment of counsel, i.e.,
within a specified time period after attachment. Pet.
at 28-30. However, they do not, and cannot, offer
any such standard from another circuit. See id. The
simple truth is that no circuit has adopted such a
standard. The absence of circuit decisions on this
issue reflects its relative unimportance and the
absence of any need for this Court to further develop
Rothgery’s reasonable time requirement at this time.
In addition, the evidentiary record in this case
is not appropriate for establishing a nationwide
standard. As the district court noted, Petitioners
failed to provide necessary information regarding the
timing of appointment in other states or even other
counties in California and necessary information
regarding when the length of a delay in appointment
in counsel begins to meaningfully impact
representation. See Pet., App. B at 77a-78a.
Without an adequate evidentiary record, this Court

29
cannot fashion the nationwide standard Petitioners
seek.
Nor have Petitioners established that the
Ninth Circuit’s decision in this case was error. Given
the record below, that court correctly issued a narrow
decision affirming the district court’s grant of
summary judgment. Petitioners do not offer this
Court any basis to disturb that ruling. Notably,
Petitioners do not, and cannot, dispute the district
court’s factual findings establishing that they
received counsel within a reasonable time after
attachment. As the district court found, both
received counsel sometime between the first and
second appearances. Pet., App. B at 80a. Indeed,
Wade’s counsel met with him prior to the second
appearance and Farrow’s counsel could have done so.
Id. at 28a-29a, 32a, 87a-90a. Further, as the district
court expressly found, the appointment of counsel
occurred with adequate time for counsel to prepare
for the next critical stage. Id. at 86a-87a (relying in
part on testimony from Petitioners’ expert,
Boruchowitz). Given these factual findings,

30
Petitioners have no basis to contest the
reasonableness of the timing of their appointment of
counsel.
C.

Petitioners Present No Basis For
this Court to Review Dismissal of
Their Due Process and Equal
Protection Claims

This Court should not grant certiorari to
consider the Ninth Circuit’s affirmance of the
dismissal of Petitioners’ Due Process and Equal
Protection claims. Contrary to Petitioners’
arguments, the Ninth Circuit’s holdings on these
claims are narrow rulings based on state law and the
facts of this case that do not conflict with decisions
from other Circuits.
Petitioners predicated their Due Process claim
upon a violation of their state speedy trial rights.
See Pet., App. G at 245a. However, because
Petitioners did not adequately allege any violation of
those rights, the district court dismissed this claim
and the Ninth Circuit affirmed.
Plaintiffs rely on California Penal Code
§ 859b, which provides that a defendant
is entitled to a preliminary examination

31
“within 10 court days of the date that
defendant is arraigned or pleads,
whichever occurs later.” However, the
complaint alleges that Lipetzky delayed
plaintiffs’ arraignments and pleas, not
that the preliminary examination
occurred more than ten days later.
Without an underlying violation of
California’s speedy trial scheme,
plaintiffs have not adequately plead a
due process claim.
Pet., App. E at 151a.
There is no basis for this Court to grant
certiorari as to this narrow ruling. Petitioners do
not, and cannot, contend that there is any circuit
split as to this particular issue of California state
law. Petitioners cite ODonnell v. Harris Cty., 892
F.3d 147 (5th Cir. 2018), and Walker v. City of
Calhoun, 901 F.3d 1245 (11th Cir. 2018). However,
both of those decisions addressed a Due Process
claim in the context of bail determinations, not state
speedy trial rights, and both involved county judges
as defendants. ODonnell, 892 F.3d at 155-156, 157;
Walker, 901 F.3d at 1255-56, 1265-66.

32
Petitioners suffer similar problems with
respect to the Ninth Circuit’s affirmance of the
dismissal of their Equal Protection claim. As to that
claim, the Ninth Circuit held that the then-extant
practice did not deprive indigent defendants of “an
adequate opportunity to present their claims fairly
within the adversary system.” Pet., App. E at 151a.
This is consistent with its holding as to the Due
Process and Sixth Amendment claims that
Petitioners suffered no adverse consequences from
the absence of counsel at their initial appearances.
Id. at 151a-152a. In addition, as the district court
pointed out, this practice applied to all individuals
eligible for Public Defender representation and, thus,
did not discriminate against indigent defendants in
favor of wealthy ones. Pet., App. F at 208a-209a.
Petitioners assert that the Ninth Circuit’s
decision somehow conflicts with ODonnell. Pet. at
36. ODonnell is distinguishable. In that case, the
court found an equal protection violation because the
bail hearing officers and county judges, who are not
defendants here, discriminated between “otherwise

33
similarly-situated misdemeanor arrestees [] based
solely on the relative wealth.” 892 F.3d at 161. As
noted above, the County’s former practice applied to
all eligible defendants and, thus, there was no
discrimination based on wealth.
D.

There is No Reason for this Court
to Exercise Its Supervisory Powers

To invoke this Court’s “supervisory powers,”
Petitioners assert that there were “departures from
the normal course of judicial proceedings” in four
respects. Pet. at 37. The four alleged errors were 1)
the district court’s use of a “totality of the
circumstances” test, 2) the district court conducting a
“bench trial by affidavit,” 3) the Ninth Circuit not
conducting a de novo review, and 4) the Ninth
Circuit’s holding that Petitioners waived their
critical stage argument. None of these alleged errors
warrant this Court’s intervention.
As an initial point, all four alleged errors
concern procedural issues impacting only this case.
Petitioners do not suggest that these errors are
commonplace or likely to occur again. Thus, these

34
“errors,” even if truly errors, do not warrant
certiorari. Boag, 454 U.S. at 366 (1982) (O’Connor,
J., concurring) (the Court should decline to expend
judicial resources on cases “whose significance is
limited to the parties.”).
Equally significantly, the lower court decisions
on these issues were correct. Petitioners fault the
standard employed by the district court, but do not
demonstrate that the standard was inappropriate or
inconsistent with the Ninth Circuit’s remand. See
Pet. at 37. As to the “bench trial by affidavit,”
Petitioners themselves concede that “[t]here are no
meaningful factual disputes in this case.” Pet. at 15.
Petitioners’ claim that the Ninth Circuit did not
conduct a de novo review is based solely on the ipse
dixit of counsel as there is nothing to support this
claim in the Ninth Circuit’s opinion.5 And for the

5

Petitioners also suggest that the Ninth Circuit erred
in holding that Petitioners “did not challenge the District
Court’s holding that they were not personally injured by the
delay,” citing their contention that they were injured through
deprivation of a constitutional right. Pet. at 11. Petitioners
misrepresent the Ninth Circuit’s holding. As plainly stated in
its decision, the Ninth Circuit held that Petitioners failed to
challenge the district court’s ruling that they did not suffer any

35
reasons stated above, Petitioners did in fact waive
their critical stage argument.
IV.

CONCLUSION
Petitioners have provided no reason for this

Court to grant certiorari in this case. To the contrary,
the foregoing establishes numerous reasons for this
Court to deny certiorari. As to Petitioners’ main
Sixth Amendment “critical stage” argument, they
waived that argument below, it is barred by Heck,
and there is no circuit court split on this issue. As to
the remainder of Petitioners’ claims, the Ninth
Circuit’s rulings on those issues are narrow rulings
based on the unique facts of this case and California

Sixth Amendment violation based on their own experiences in
state criminal court. Pet., App. A at 3a. That is manifestly
correct.

36
law and not the subject of circuit court splits. The
petition should, therefore, be denied.
DATED: January 6, 2021
Respectfully submitted,
SHARON L. ANDERSON
County Counsel
D. CAMERON BAKER*
Counsel of Record
SEAN M. RODRIQUEZ
Deputy County Counsel
Attorneys for Respondent
Contra Costa County

37
APPENDIX A - APPELLANTS OPENING BRIEF

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 1 of 91

No. 19-15152
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

____________________________________________________
John Farrow, et al.,
Plaintiffs-Appellants
v.
Contra Costa County
Defendant-Appellant
____________________________________________________
Appeal from the United States District Court
for the Northern District of California
No. 3:12-cv-06495
Honorable Joseph C. Spero
_________________________________________________________

APPELLANTS’ OPENING BRIEF

_________________________________________________________
CHRISTOPHER ALAN MARTIN
Attorney at Law
11 Embarcadero West, Ste. 100
Oakland, CA. 94607
(510) 206-2142
m305@icloud.com

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 2 of 91

TABLE OF CONTENTS
I.

STATEMENT OF JURISDICTION -

-

-

1

II.

STATEMENT OF ISSUES PRESENTED -

-

1-5

III.

STATEMENT OF THE CASE

-

5-

A. Facts
B. This Court’s Earlier Opinion
C. Proceedings on Remand in this Case 1) Third Amended Complaint 2) Third Motion to Dismiss
3) Expert Reports, Testimony, and
Evidentiary Rulings
a. Professor Boruchowitz b. Henry Coker
c. Robin Lipetzky
-

-

5-6
6
6
6
7

-

19-32
19-25
25-29
29-32

SUMMARY JUDGMENT MOTIONS

-

33-63

-

33-35
36

-

36

-

36-37

-

38-50

IV.

-

-

-

A) Defendant’s Motion
B) Plaintiffs’ Motion
1) The First Appearance in a California
Court is a Critical Stage of the
Proceedings
2) Defendant’s Policy Delayed Provision of
Counsel for an Unreasonably long Period
of Time
C) Magistrate Judge’s Ruling on Summary
Judgment
V.

SUMMARY OF ARGUMENT

VI.

ARGUMENT

-

-

-

-

50-53

-

-

-

-

-

53-

1) Standards of Review
A. Summary Judgement

-

-

-

-

53-55
53-54

i

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 3 of 91

B. Denial of a Constitutional Right
Through a Policy of Inaction
-

-

-

54-55

C. The magistrate judge’s
“Totality of the Circumstances” test

-

55

D. Plaintiffs’ First Appearance in a
California Court was a “Critical Stage”
of the Proceedings
-

-

55-58

E. The County had a Policy of Delaying
Provision of Counsel for a Period of Five
to Thirteen days, and Sometimes Longer -

58-60

F. The Delay in Providing Representation
by Counsel was Unreasonable
-

-

60-66

G. Deliberate Indifference & Causation -

-

67-72

VII. REASIGNMENT

-

-

-

-

-

-

72-78

VIII. CONCLUSION

-

-

-

-

-

-

78-80

STATEMENT OF RELATED CASES

-

-

81

CERTIFICATE REGARDING BRIEFING
FORM
-

-

82

CERTIFICATE OF SERVICE

-

83

ii

-

-

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 4 of 91

TABLE OF AUTHORITIES
Federal Cases
Supreme Court
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 245 (1986) -

-

18, 77

Carey v. Piphus,
435 U.S. 247 (1978)

-

-

71

Celotex Corp. v. Catrett,
477 U.S. 317, 331 (1986) -

-

15, 64, 66

Davis v. Ayala,
135 S.Ct. 2187 (2015)

-

-

8, 10

Gideon v. Wainright,
372 U.S. 335 (1963)

-

-

21

Heck v. Humphrey, 512 U.S. 477 (1994)

-

8

Rothgery v. Gillespie County, Tex.,
554 U.S. 191, 212 (2008)

-

4, 6, 12, 13, 25, 41,
51, 60, 65, 71, 78,
79

Strickland v. Washington,
466 U.S. 668 (1984)

-

-

10, 73

United States v. Cronic,
466 U.S. 648 (1984)

-

-

10, 73

-

8

United States v. Morrison,
449 U.S. 361, 364-65 (1981)

iii

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 5 of 91

West v. State Farm Fire & Casualty Co.,
868 F.2d 348, 350-351
(9th Cir. 1988)
-

-

21

Ayala v. Wong,
756 F.3d 656 (9th Cir. 2014)

-

8, 10

Berry v. Baca,
379 F.3d 764 (9th Cir. 2004)

-

21

Embrey v. Bowen,
849 F.2d 418 (9th Cir. 1988)

-

28

George v. Edholm,
752 F.3d 1206, (9th Cir. 2014) -

53

Gradillas v. Lincoln General Ins. Co.,
792 F.3d 1050 (9th Cir. 2015) -

57

Farrow v. Lipetzky,
637 Fed.Appx 986 (2016)

-

6, 51, 60, 74

-

56, 58

Circuit Court

Hovey v. Ayers,
458 F.3d 892 (9th Cir. 2006)

-

Lopez v. General Motors Corp.,
697 F.2d 1328, (9th Cir. 1983) -

59

Manley v. Rowley,
847 F.3d 705 (9th Cir. 2017)

72

-

Int'l Union, United Auto., Aerospace & Agr.
Implement Workers of Am. (UAW) v.
N. L. R. B., 459 F.2d 1329
(D.C. Cir. 1972)
16

iv

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 6 of 91

Mejia v. Sacramento,
177 Fed.Appx 661
(9th Cir. 2006)

-

-

-

22

Nat'l Indus., Inc. v. Republic Nat. Life Ins. Co.,
667 F.2d 1258, 1265
(9th Cir. 1982)
-

15

Nationwide Transport Finance v. Cass
Information Systems, Inc.,
523 F.3d 1051 (9th Cir. 2008) -

22

Oviatt By and Through Waugh v. Pearce,
954 F.2d 1470 (1992)
-

-

54

Singh v. Gonzales,
499 F.3d 1019 (9th Cir. 2007) -

65

TransWorld Airlines v.
American Coupon Exchange, Inc.,
913 F.2d 676 (9th Cir.1990)

-

77

-

8

-

United States v. Cabaccang,
332 F.3d 622 (9th Cir. 2003)

United States v. Owen,
407 F.3d 222, 227 (4th Cir. 2005)

9

United States v. Perez,
776 F.2d 797, 9th Cir. 1985)

8, 10

-

United States v. Roy,
855 F.3d 1133 (11th Cir. 2017) -

9

District Court Cases
Church v. Missouri,
913 F.3d 736 (2017)

-

-

v

-

40

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 7 of 91

Federal Statutes
28
28
28
42

U.S.C.
U.S.C.
U.S.C.
U.S.C.

§ 1291
§§ 1331
§ 1367(a)
§ 1983

-

-

-

-

1
1
1
1

-

-

-

-

13

-

-

-

1, 24, 30, 33, 38,
39, 40, 41, 43, 45,
46, 47, 48, 49, 51,
67, 68, 69, 70, 71,
72, 73, 78, 79,

In re Brindle,
91 Cal.App.3d 660, (1979)

-

32

Kuren v. Luzerne Cty.,
146 A.3d 715, 718 (2016)

-

40

People v. Cox,
193 Cal.App.3d 1434 (1987)

-

9, 58

People v. Figueroa,
11 Cal.App.5th 665, (2017)

-

7, 36, 55, 62, 74

People v. Martinez,
22 Cal.4th 750 (2000)

-

62

Federal Rules
Rule 12(b)(6)

Constitutional Provisions
Sixth Amendment

-

-

State Cases

-

vi

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 8 of 91

Phillips v. Seely,
43 Cal.App.3d 104 (1974)

-

7

-

57

California Business and Professions Code
section 6126 -

42

California Penal Code section 859b -

-

36

California Penal Code section 977

-

-

42

California Penal Code section 1382 -

-

36

Sykes v. Superior Court,
9 Cal.3d 83, 88 (1973)

-

-

State Statutes

vii

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 9 of 91

I.

STATEMENT OF JURISDICTION

After remand from this Court, Plaintiffs filed a Third
Amended Complaint in the district court on November 16,
2016 alleging claims under the Sixth Amendment to the
United States Constitution, 42 U.S.C. § 1983, and additional
state claims. Accordingly, the district court had jurisdiction
over the federal claims pursuant to 28 U.S.C. §§ 1331 and
1343, and it had supplemental jurisdiction over the state law
claims pursuant to 28 U.S.C. § 1367(a). On January 2, 2019
the district court granted Defendant’s Motion for Summary
Judgment in its entirety, entering final judgment in favor of
Defendant Contra Costa County. (Dkts. 145-146; 1-60.)
Plaintiffs filed a timely notice of appeal from the judgment on
January 25, 2019. (Dkt. 147; 663-68.) Accordingly, this Court
has appellate jurisdiction under 28 U.S.C. § 1291.

II. STATEMENT OF ISSUES PRESENTED
1) Is a presumptively innocent criminal detainee’s first
appearance in a California Court a “critical stage” of the
proceedings requiring the provision of appointed counsel

1

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 10 of 91

given that the state court judge must ask the detainee
whether he wishes to enter a plea at that hearing, bail is
set according to a schedule, and statutory speedy trial
rights are directly impacted?
2) The Contra Costa County Public Defender declared in an
official County document on September 6, 2012 that,
Under the current system,
incarcerated persons who request the
public defender services (the vast
majority of people charged) must wait
a period of time – between 7 and 14
days—in custody before their next
court date when they will have an
attorney to represent them. Only at
that time, after spending one to two
weeks in custody, will they have an
opportunity to ask a judge to reduce
their bail or release on their own
recognizance.
(Dkt. 125-2; 298:12-23; 299; 346.)
In light of this statement explicitly describing the Policy
of delaying representation for a period of one to two weeks,
and other overwhelming evidence establishing the existence of
the Policy, did the district court err by concluding that,
Plaintiffs cite no evidence that, as a
matter of course, the County “appoint[ed]
counsel five to thirteen days and
2

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 11 of 91

‘sometimes longer’ after the right
attaches.” Aside from their own individual
experiences, Plaintiffs have not presented
evidence that such a policy exists, and
cannot prevail on the basis that a
hypothetical policy would violate the
Sixth Amendment. (Internal citation
omitted.)
(Dkt. 145; 50:4-9.)
3) Did Plaintiffs prove – through the expert opinion of
Professor Boruchowitz, the 55 compelling reasons
supporting his opinion, the inculpatory testimony of the
County Public Defender, the damning statements of
Defendant’s own expert, and the negative inference that
should be drawn from the County’s failure to justify its
Policy – that the County violated Plaintiffs’ Sixth
Amendment right to counsel by delaying provision of
counsel for an “unreasonable period of time” by
withholding representation for five to thirteen days, and
sometimes longer?
4) Did the magistrate judge erroneously exclude Professor
Boruchowitz’s expert opinion that the County withheld
provision of counsel for an unreasonable period of time in
3

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 12 of 91

violation of the “reasonable time” requirement of Rothgery
v. Gillespie County, Tex., 554 U.S. 191, 212 (2008)?
5) Did the district court err in considering Retired San
Diego Public Defender Henry Coker’s expert opinion that
provision of counsel in the two named Plaintiffs’ criminal
matters was not unreasonably delayed when: (a) he
based his opinion upon a “microscopic review” of selfserving, factually unsupported hypotheticals posed by
County Counsel; (b) he failed to “consider whether
appointing counsel five to thirteen days and ‘sometimes
longer’ after the right attaches complies with the
‘reasonable time’ requirement articulated in Rothgery”;
and (c) he erroneously assumed that a visit by a
paralegal qualified as representation by counsel under
the Sixth Amendment?
6) Did the district court err in granting the County’s
Summary Judgment motion based upon the County’s
last-minute declarations – which contradicted its
previous official statements and testimony?

4

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 13 of 91

7) Should this Court grant declaratory relief, injunctive
relief and nominal damages, given that Plaintiffs have
proven that Defendant maintained a Policy of withholding
representation by counsel for an unreasonable period of
time in violation of Plaintiffs’ Sixth Amendment right to
counsel?
8) In the event that this Court remands the matter to the
district court for further proceedings, should this Court
order that the matter be reassigned to a different judge
due to the magistrate judge’s outspoken commitment to
Defendant’s position and his explicit refusal to follow this
Court’s precedents, which have required continuing
intervention by this Court?

III. STATEMENT OF THE CASE
A. Facts
Tens of thousands of indigent presumptively innocent
criminal detainees were denied counsel, the right to enter a
plea, their right to apply for bail, and their statutory speedy
trial rights for a period of between five and thirteen days, and
5

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 14 of 91

sometimes longer, after their first appearance in court due to
Defendant’s longstanding and written Policy of withholding
counsel during that period. Plaintiffs, who were subjected to
this Policy, filed suit on December 21, 2012, to obtain judicial
relief from this travesty.

B. This Court’s Earlier Opinion in This Case
This Court previously remanded the matter to the district
court in Farrow v. Lipetzky, 637 Fed.Appx 986 (2016), stating,
We … remand for the district court to
consider whether appointing counsel five
to thirteen days and ‘sometimes longer’
after the right attaches complies with the
‘reasonable time’ requirement articulated
in Rothgery.

C. Proceedings on Remand
1) Third Amended Complaint
Plaintiffs filed a Third Amended Complaint in which they
alleged that they had a right to enter a plea at their first court
appearance, correcting the error of omission concerning this
issue pointed out by Justice Fletcher during oral argument on

6

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 15 of 91

the first appeal in this case.1 See, People v. Figueroa, 11
Cal.App.5th 665, 677 (2017) (“The arraignment ‘is the
defendant’s first court appearance. [T]he court at the
arraignment must afford the defendant the opportunity
to enter a plea"). Further, the California Court of Appeal
stated in Phillips v. Seely, 43 Cal.App.3d 104, 112-13 (1974)
that, “In the area of criminal proceedings the right of an
accused person, whether indigent or otherwise, to the
immediate and effective assistance of counsel is settled
law in California.” If this Court agrees with this conclusion,
no further analysis of Plaintiffs’ Sixth Amendment claim is
required, and summary judgment should be entered in
Plaintiffs’ favor.

2) Third Motion to Dismiss
Defendant filed a third motion to dismiss pursuant Rule
12(b)(6), insisting that actual prejudice is a necessary element

The Third Amended Complaint is identical to the Second
Amended Complaint previously reviewed by this Court, with
the exception of the addition referenced above and the
elimination of the Due Process and Equal Protection claims
that were rejected by this Court.
1

7

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 16 of 91

of any Sixth Amendment claim – in spite of this Court’s earlier
ruling in this case to the contrary. (Dkt. 101; 574:25-575.) The
County also asserted for the first time that the doctrine of
Heck v. Humphrey, 512 U.S. 477 (1994) bars any claim based
upon a Sixth Amendment violation.
The district court further concluded that Heck barred
“Plaintiffs’ Sixth Amendment claim to the extent that it was
based on a theory that they were denied counsel at a “critical
stage” of a criminal prosecution, because such a deprivation –
at least for the particular stage at issue – would be grounds for
per se reversal of Plaintiffs’ convictions.” (Dkt. 145; 9:1-4.)
The “particular stage at issue” was the criminal defendant’s
first appearance in court. Here, the district court disagreed
with both federal and California Court of Appeal
precedent. See, United States v. Morrison, 449 U.S. 361, 36465 (1981); Ayala v. Wong, 756 F.3d 656, 673 (9th Cir. 2014,
overruled on separate grounds in Davis v. Ayala, 135 S.Ct.
2187 (2015)); (U.S. v. Perez, 776 F.2d 797, 800 (9th Cir. 1985,
overruled on separate grounds by U.S. v. Cabaccang, 332 F.3d
622 (9th Cir. 2003) (“Even if failure to appoint counsel at this
8

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 17 of 91

early stage was a constitutional violation it “was harmless
error.”); U.S. v. Owen, 407 F.3d 222, 227 (4th Cir. 2005) (“Our
conclusion that Owen’s arraignment without counsel is
subject to harmless-error analysis is abundantly supported by
Supreme Court cases applying harmless-error analysis to the
denial of the Sixth Amendment right to counsel at various
“critical stages” of criminal process”); United States v. Roy, 855
F.3d 1133, 1144 (11th Cir. 2017) (discussion of harmless error
under the Sixth Amendment); People v. Cox, 193 Cal.App.3d
1434, 1440 (1987) (“arraignment is a critical stage of the
proceeding entitling the defendant to an attorney, [but] the
absence of an attorney at the arraignment is not such a
grievous error that it compels a reversal without a showing of
prejudice”).
The district court rationalized its determination that it
would not follow Ninth Circuit precedent, thus:
The Ninth Circuit also suggested that
harmless error review is appropriate for
denial of counsel at a critical stage in
United States v. Perez, a case cited by
Plaintiffs here, although its discussion of
that issue is dicta in light of the holding
that “there [was] no constitutional right
9

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 18 of 91

for counsel to be present” at the initial
appearance in question. United States v.
Perez, 776 F.2d 797, 800 (9th Cir. 1985),
overruled on other grounds by United
States v. Cabaccang, 332 F.3d 622, 634–
35 (9th Cir. 2003). Perez was decided just
months after the Supreme Court issued
its opinions in Strickland and Cronic and
does not cite or acknowledge either of
those decisions, instead relying on older
authority such as Coleman in its
discussion of harmless error. See Perez,
776 F.2d at 800.
(Dkt. 107; 116: fn. 9.)
In reaching this conclusion the district court assumed that
this Court was unaware of Strickland v. Washington, 466 U.S.
668 (1984) and United States v. Cronic, 466 U.S. 648 (1984),
when it drafted Perez. However, even if that were true, the
district court ignored this Court’s much later opinion in Ayala
v. Wong,756 F.3d 656, 673 (9th Cir. 2014), where this Court
stated:
As the Fourth Circuit has explained, the
statements in Mickens and Cronic rely on
the Supreme Court’s earlier usage of the
phrase “critical stage,” in cases such
as Hamilton v. Alabama, 368 U.S. 52, 82
(1981), and White v. Maryland, 373 U.S.
59, 83 (1963) to refer narrowly to those
proceedings both at which the Sixth
Amendment right to counsel attaches and
10

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 19 of 91

at which denial of counsel necessarily
undermines the reliability of the entire
criminal proceeding.... [T]he Supreme
Court has subsequently used the phrase
“critical stage,” in cases such as United
States v. Wade, 388 U.S. 218 (1967)
]and Coleman v. Alabama, 399 U.S. 1
(1970), in a broader sense, to refer to all
proceedings at which the Sixth
Amendment right to counsel attaches—
including those at which the denial of
such is admittedly subject to harmlesserror analysis.
The district court justified its decision not to follow Ayala,
supra, thus, “Other decisions by the Ninth Circuit, however,
have applied a per se rule to denial of counsel at a “critical
stage” without indicating that a court must examine which
type of “critical stage” applies to the case at hand.” (Dkt. 107;
116:8-10.)
With respect to California Court of Appeal precedent, the
district court stated that, “This Court is not bound by
California state court decisions on issues of federal law, and
respectfully disagrees with Cox as inconsistent with White and
Hamilton, if not also with Cronic.” (Id., at 119 fn. 13.)
The district court also held that, “for the purpose of the
motion to dismiss that reasonableness of the delay in
11

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 20 of 91

appointing counsel after attachment depends on the
totality of the circumstances, including the time needed
to prepare for an upcoming critical stage – but not
limited to that factor.” (Dkt. 107; 123:1-4.) It failed,
however, to elucidate any of the other factors it found
pertinent to resolving the question of whether Defendant’s
Policy of withholding counsel for five to thirteen days, and
sometimes longer, complied with Rothgery’s “reasonable time”
requirement.
In granting Defendant’s Summary Judgment Motion,
however, it stated that:
Even if Plaintiffs had established the
existence of such a policy, the record is
not conducive to determining its
reasonableness, for much the same
reasons that, as discussed above, this
record would not allow the Court to
develop a per se rule of how much time is
permissible. The lack of evidence
regarding broad topics like, for example,
logistical challenges to appointing
counsel, processes for resolving conflicts
and caseload constraints, and accepted
practices and timelines in other
jurisdictions would still leave the finder of
fact without sufficient facts to justify a
conclusion that the policy, on its face,
was constitutionally unreasonable.
12

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 21 of 91

(Dkt. 145; 50:25-28, fn. 16.)
Plaintiffs were blindsided by this ruling because the district
court had not specified that they were required to produce this
specific type of evidence in order to prevail, especially when
Defendant, not Plaintiffs, would ordinarily be expected to
adduce this type of evidence to establish that the
automatically imposed five to thirteen day, and sometimes
longer, delay imposed by the Policy in every case, without
regard to the circumstances of any particular case, was
reasonable. Indeed, in denying Defendant’s third 12(b)(6)
motion, the district court stated:
Plaintiffs’ complaint here alleges that
Lipetzky “arbitrarily withheld legal
representation ... for a period of 5 to 13
days” after the right attached—seven
days in the case of Wade, and thirteen
days in the case of Farrow. TAC ¶¶ 1, 29,
41. Nothing on the face of the complaint
shows that delay to be reasonable. For
the purpose of the present motion to
dismiss, the Court holds that Plaintiffs
have plausibly alleged that the delay
was unreasonable, and therefore
violated their Sixth Amendment rights
to appointed counsel as articulated
in Rothgery.
(Dkt. 107; 123:18-25.)
13

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 22 of 91

Thus, the district court appropriately placed the burden of
establishing the reasonableness of the delay on
Defendant with respect to its Motion for Summary Judgment,
while Plaintiffs were required to prove that the delay was
unreasonably long to prevail on their Motion for Summary
Judgment. Here, Plaintiffs carried their burden by proving
that the delay was unreasonably long through Professor
Boruchowitz’s expert opinion, the 55 factors underlying
his opinion, the County Public Defender’s statements, and
the statements by Defendant’s own expert. From this
evidence a reasonable trier of fact could conclude that
Defendant delayed provision of counsel for an unreasonably
long period of time.
Furthermore, Defendant did not rebut this evidence with
“evidence regarding broad topics like, for example, logistical
challenges to appointing counsel, processes for resolving
conflicts and caseload constraints, and accepted practices and
timelines in other jurisdictions that would justify a conclusion
that the policy, on its face, was constitutionally” reasonable,
as opposed to unreasonable. Therefore, it was utterly
14

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 23 of 91

irrational for the district court to grant Defendant’s Summary
Judgment Motion based upon its failure to rebut Plaintiffs’
evidence demonstrating that the Policy was unreasonable. In
short, the magistrate judge saddled Plaintiffs with Defendant’s
burden and then granted Defendant’s motion because
Plaintiffs did not carry Defendant’s burden.
However, given that Defendant had the burden of rebutting
Plaintiffs’ evidence showing that Defendant’s Policy was
unreasonable, and provided absolutely no evidence
establishing that the delay was reasonable, summary
judgment should have been granted in Plaintiffs’ favor. As this
Court stated in Nat'l Indus., Inc. v. Republic Nat. Life Ins. Co.,
667 F.2d 1258, 1265 (9th Cir. 1982), “[S]ummary judgment
should be granted when the evidence in support of the motion
would, if uncontradicted, entitle the moving party to a directed
verdict were the case to proceed to trial.” Additionally, the
Supreme Court in Celotex Corp. v. Catrett, 477 U.S. 317, 331
(1986) stated,
The burden of production imposed by
Rule 56 requires the moving party to
make a prima facie showing that it is
15

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 24 of 91

entitled to summary judgment. 10A
Wright, Miller & Kane § 2727. The
manner in which this showing can be
made depends upon which party will bear
the burden of persuasion on the
challenged claim at trial. If the moving
party will bear the burden of persuasion
at trial, that party must support its
motion with credible evidence—using any
of the materials specified in Rule 56(c)—
that would entitle it to a directed verdict
if not controverted at trial. Ibid. Such an
affirmative showing shifts the burden
of production to the party opposing
the motion and requires that party either
to produce evidentiary materials that
demonstrate the existence of a “genuine
issue” for trial or to submit an affidavit
requesting additional time for discovery.
Ibid.; Fed.Rules Civ.Proc. 56(e), (f).
(Emphasis added.)
Additionally, the district court should have determined that
the County was incapable of justifying the delay because it
would have produced evidence supporting its Policy if such
evidence existed. As this Court stated in Int'l Union, United
Auto., Aerospace & Agr. Implement Workers of Am. (UAW) v. N.
L. R. B., 459 F.2d 1329, 1336 (D.C. Cir. 1972),
Simply stated, the rule provides that
when a party has relevant evidence
within his control which he fails to
produce, that failure gives rise to an
inference that the evidence
16

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 25 of 91

is unfavorable to him. As Professor
Wigmore has said: The failure to
bring before the tribunal some
circumstance, document, or witness,
when either the party himself or his
opponent claims that the facts would
thereby be elucidated, serves to
indicate, as the most natural
inference, that the party fears to do
so, and this fear is some evidence that
the circumstance or document or
witness, if brought, would have
exposed facts unfavorable to the
party. These inferences, to be sure,
cannot fairly be made except upon
certain conditions; and they are also
always open to explanation by
circumstances which make some other
hypothesis a more natural one than the
party's fear of exposure. But the propriety
of such inference in general is not
doubted.
In this regard, the County had the opportunity to justify its
Policy through the testimony of its expert, Retired Public
Defender Henry Coker, but expressly ordered him to avoid
consideration of whether the Policy was reasonable. (404:11406:12.) Moreover, Public Defender Lipetzky could have
justified her Policy by explaining why she did not provide
representation, or the County could have obtained an amicus
brief from the California Association of Public Defenders
17

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 26 of 91

(CPDA), which would be uniquely qualified to address “broad
topics like, for example, logistical challenges to appointing
counsel, processes for resolving conflicts and caseload
constraints, and accepted practices and timelines in other
jurisdictions.” The fact that the County affirmatively avoided
this evidence, which was uniquely in its control, establishes
that the County feared that CPDA and the witnesses would
have found that the delay in providing representation was
unreasonably long.
Ultimately, the district court’s “totality of the
circumstances” test impermissibly allowed the district court to
conduct a bench trial by affidavit, where it weighed the
evidence according to its own subjective perception of
relevance. However, as the Supreme Court stated in Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 245 (1986),
Our holding that the clear-andconvincing standard of proof should be
taken into account in ruling on summary
judgment motions does not denigrate the
role of the jury. It by no means authorizes
trial on affidavits. Credibility
determinations, the weighing of the
evidence, and the drawing of legitimate
inferences from the facts are jury
18

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 27 of 91

functions, not those of a judge, whether
he is ruling on a motion for summary
judgment or for a directed verdict. The
evidence of the non-movant is to be
believed, and all justifiable inferences are
to be drawn in his favor.

3) Expert Reports, Testimony and Evidentiary
Rulings
a. Professor Boruchowitz
Plaintiffs retained Professor Robert Boruchowitz who is a
preeminent expert on indigent defense practices and Sixth
Amendment rights. Professor Boruchowitz delineated 55
factors leading to his conclusion that a delay of five to
thirteen days in appointment of counsel, and sometimes
longer, was unreasonable. (Dkt. 125-2; 355-371.)
The district court, however, granted Defendant’s motion to
exclude Professor Boruchowitz’s ultimate opinion with respect
to whether Defendant delayed provision of counsel for an
unreasonable period of time and the portions of his report
addressing case law interpreting the Sixth Amendment,
stating:
If Plaintiffs wanted Boruchowitz to
present legal arguments, they could have
19

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 28 of 91

retained him as counsel rather than as
an expert, or requested that he file an
amicus brief on behalf of himself or one
of the indigent defense organizations with
which he works. Such arguments fall
outside of Boruchowitz’s role as an expert
witness.
(Dkt. 145; 43:21-24.)
However, Professor Boruchowitz did not make legal
arguments. Rather he appropriately offered his professional
opinion as a scholar and nationally recognized expert on
indigent defense services, and as an indigent defense
practitioner of forty-three years, with vast experience in every
aspect of the delivery of indigent defense services. In this
regard, having testified before the United States Senate
Judiciary Committee, and having assessed the provision of
indigent defense counsel nationally, and having had his
testimony and reports accepted by courts in multiple
landmark cases (Dkt. 125-2; 372-381), a reasonable inference
arises that his expert opinion was based upon an
understanding of “broad topics like, for example, logistical
challenges to appointing counsel, processes for resolving
conflicts and caseload constraints, and accepted practices and
20

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 29 of 91

timelines in other jurisdictions.” Indeed, his report references
his vast experience with respect to indigent defense caseloads.
(Dkt. 125-2; 356, 371, 374, 375, 376, 379, 380.)2
Unfortunately, however, as fully articulated in Plaintiffs’
Opposition to Defendant’s Daubert Motion (Dkt. 136; 669690), the magistrate judge erroneously took Professor
Boruchowitz’s opinion concerning the “reasonableness” of the
Policy as a question of law invading the province of the court,
when the “reasonableness” of the Policy is a question of fact
based upon assessment of all of the evidence presented. See,
West v. State Farm Fire & Casualty Co., 868 F.2d 348, 350351 (9th Cir. 1988) (reasonableness generally a question of
fact for the jury); Berry v. Baca, 379 F.3d 764, 773 (9th Cir.
2004) (reasonableness of policy a jury determination).
Moreover, Professor Boruchowitz did not opine on the issue
of the Policy’s constitutionality per se, but instead addressed

To the extent that the County has caseload problems, they
are self-inflicted. If caseload problems due to underfunding
justified denial of representation, counties could ignore their
obligation to provide adequate funding under Gideon v.
Wainright, 372 U.S. 335 (1963).
2

21

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 30 of 91

the reasonableness of the delay imposed by the Policy when
examined in the context of the facts. “As a general rule,
testimony in the form of an opinion or inference otherwise
admissible is not objectionable because it embraces an
ultimate issue to be decided by the trier of fact. Fed.R.Evid.
704(a),” Nationwide Transport Finance v. Cass Information
Systems, Inc., 523 F.3d 1051, 1058 (9th Cir. 2008).
Additionally, Professor Boruchowitz’s references to the law
and legal standards were not arguments on whether the Sixth
Amendment was violated, but were statements to the effect
that, among the multitude of factors showing that the Policy
delayed provision of counsel for an unreasonable period of
time, it is also manifestly unreasonable to have a Policy that
flouts California case law and statutes mandating the
immediate provision of counsel. (See, Mejia v. Sacramento, 177
Fed.Appx 661, 664 (2006) (reasonable officer would not flout
law).
Also, the district court found that the standards portions of
Professor Boruchowitz’s report specifying that representation
should begin “as soon as possible,”
22

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 31 of 91

[O]nly raises the question of when
appointment is “possible.” Taken literally,
and devoting unlimited resources, it
would likely be possible to appoint
counsel for every defendant the moment
that the right to counsel attached, but as
discussed below, a rule requiring
appointment at that time would be
inconsistent with the “reasonable time
after attachment” standard applicable
here. If Boruchowitz’s opinion is read
more liberally as requiring appointment
“as soon as [reasonably] possible,” see id.,
it only begs the original question of what
delay is reasonable. The County’s motion
to exclude these opinions on the ultimate
question at issue is GRANTED.
(Dkt. 145; 43:2-10.)
Here, the district court obscured the importance of the
standards portion of Professor Boruchowitz’s report by
quibbling with semantics, only to later complain that Plaintiffs
cited no standards upon which it could make a ruling.
However, to the extent that “provision of counsel as soon as
possible” equates with “the original question of what delay is
reasonable,” as stated by the district court, logic dictates that
Defendant’s Policy of delaying representation for five to
thirteen days, and sometimes longer, was unreasonable
because the County admitted that it that it was possible to
23

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 32 of 91

provide representation within three court days in a letter
to the Presiding Judge of the superior court in 1984 (Dkt. 1421: 504-507) and it has demonstrated that it is both cost
effective and possible to provide representation at the
first court appearance. (Dkt. 131; 465:13-23.) Therefore,
given that it is reasonably possible to provide counsel in
less than five to thirteen days, and sometimes longer, the
district court should have granted summary judgment in
Plaintiffs’ favor according to its own logic.
The district court also stated,
This order assumes for the sake of
argument that all of the other
evidence to which the County objects
is admissible.
(Dkt. 145; 43:25-26.)
The other admissible evidence was everything other than
Professor Boruchowitz’s “ultimate opinion with respect to
whether Defendant delayed provision for an unreasonable
period of time and the portions of his report addressing case
law interpreting the Sixth Amendment.”

24

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 33 of 91

Consequently, even if this Court accepts the district court’s
ruling excluding Professor Boruchowitz’s ultimate opinion that
the County delayed provision of counsel for an unreasonable
period of time, this Court may independently examine, on de
novo review, all of the evidence, including the evidence in
Professor Boruchowitz’s report that was admitted, which leads
to the uncontroverted conclusion that the County delayed
provision of counsel for an unreasonable period of time as a
matter of Policy.

b. Retired Public Defender Henry Coker
The County hired retired San Diego Public Defender Henry
Coker as an expert witness. The County ordered Coker not
“... to consider whether appointing counsel five to
thirteen days and ‘sometimes longer’ after the right
attaches complies with the ‘reasonable time’ requirement
articulated in Rothgery,” or topics pertinent to this
Court’s mandate. (Dkt. 125-2; 424:2-10.) In other words, the
County ordered its expert to avoid answering the question
posed by this Court.
In this regard, Coker stated that,
25

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 34 of 91

I was not – without having looked at the
broad system – I was not asked to look
at the entire system. I was asked to
take a microscopic look at two cases
and render my opinion on that. So I
want to keep my views tightly to things
that I have looked at. I don’t know what’s
the overall Policy in Contra Costa on a
Monday through Friday.
(Dkt.125-2; 404:6-406:3.)
Coker went on to “microscopically” evaluate whether the
delay in appointing counsel in the named Plaintiffs’ underlying
criminal matters was reasonable based upon hypothetical
impediments to providing representation, such as conflicts of
interest and inadequate County funding (a self-inflicted
problem), that were not even considered by the Public
Defender when it denied representation until the second
arraignment hearing in the named Plaintiffs’ cases or in any of
the tens of thousands of cases where representation was
arbitrarily denied for a period of approximately one to two
weeks over the course of decades. (Dkt. 125-2; 349:5-350:10.)
Consequently, Coker’s opinion regarding the
reasonableness of the delay should be disregarded under
Federal Rules of Evidence, Rule 702(b), as Coker’s testimony
26

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 35 of 91

and report concerning the reasonableness of the delay in
providing representation are not based upon the actual
reasons for the delay in providing representation, which were
the convenience of the institutional actors, and the deliberate
indifference of the County – as opposed to the pretense that
the delay was due to sorting out conflicts of interest or due to
analysis of caseloads.
In fact, during her deposition, the following colloquy took
place:
Lipetzky: It would be pure speculation
for me to try to figure out why a court
would decide which counsel-and-plea
calendar to set a case on. We had
nothing to do with that.
Martin: Okay. But the length of time was
based upon which counsel-and-plea
setting the court chose?
Lipetzky: Yes.
This explicitly negates the contention that the Public
Defender specified the length of the delay based upon the need
to sort conflicts or analyze caseloads: the court set the date of
the second appearance, and the County waited until the
second appearance to provide counsel, precisely as described
27

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 36 of 91

in the 1984 letter between the Public Defender’s Office and the
Presiding Judge of the Superior Court. Therefore, Coker’s
opinion on the reasonableness of the delay, based upon the
self-serving, factually unsupported hypotheticals posed to him
by County Counsel, should be excluded from this Court’s
analysis. Indeed, this Court stated in Embrey v. Bowen, 849
F.2d 418, 422 (9th Cir. 1988) that, “If the assumptions in the
hypothetical are not supported by the record, the opinion of
the … expert … has no evidentiary value.”
Significantly, however, Coker also stated that: (1) his office
arranges for the provision of counsel at the first appearance in
every case, regardless of whether there are conflicts of interest;
(2) that his office enters a plea at the first appearance in order
to preserve the detainee’s statutory speedy trial rights; (3) that
he was unaware of any case requiring more than a week
to sort out conflicts of interest, even when there were
seventeen or eighteen codefendants (Dkt. 125-2; 413:15414:7); (4) that his office tracks all court dates (Id. at 422:1124.); (5) that it would be unreasonable for appointed
counsel to wait five two weeks to take any action in a
28

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 37 of 91

given case (Id. at 408:9-24); and (5) he stated that, “[F]rom
my experience visiting other counties, surrounding
counties, and I talk on a regular basis with other public
defenders, we tend to do things pretty much the same
way.” In this regard, he stated that he knows of no other
county in the state that employs a bifurcated
arraignment process. (Id. at 420:1-421:7.)
Thus, Coker did opine on “broad topics like, for example,
logistical challenges to appointing counsel, processes for
resolving conflicts and caseload constraints, and accepted
practices and timelines in other jurisdictions,” just not in a
manner that helps the County. Moreover, his testimony, rather
than justifying the County’s Policy, established that Contra
Costa was alone in failing to appear at the first appearance,
alone in arbitrarily withholding counsel for five to thirteen
days, and sometimes longer, and alone in failing to preserve
statutory speedy trial rights.

c. PUBLIC DEFENDER LIPETZKY
The magistrate judge stated, without analysis or reference
to authority that,
29

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 38 of 91

The Court agrees with the County,
however, that statements by Lipetzky do
not constitute binding judicial
admissions on behalf of the County, nor
are her or any other witness’s personal
opinions as to what the Sixth
Amendment requires in this context
relevant to the Court’s interpretation of
the law.
(Dkt. 145; 43:25-44:1.)
Context suggests that the magistrate judge held that the
Public Defender’s professional opinion that the County’s Policy
was “unlawful” and created a “gap” in providing “legally
mandated” representation was inadmissible as a binding
admission by the County on the illegality of the Policy. (Dkt.
142-1: 516:C; 536-537:4.). However, context further suggests
that her many statements attesting to the existence of the
Policy were admissible to prove the existence of the Policy and
to show knowledge on the part of the County concerning the
existence of the constitutional infringement.
In any event, it is clear that the Contra Costa County Public
Defender agrees with Plaintiffs in this matter. Her statements
regarding the Policy in terms of the devastation to the lives of
detainees subjected to the Policy (Dkt. 125-2; 304:1-25; 29530

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 39 of 91

96), the financial irresponsibility of the Policy (Id. at 296:19;
299:II; 300:13-23; 303:7-304:20; 324:4-13; 325 [Expected
Outcomes]; 329: [The Solution]; 330:11-25; 331:B; 333:
[Expected Savings]; ), and the unlawfulness of the Policy (Dkt.
142-1: 516:C; 536-537:4), demonstrate that if she were called
as an expert witness in this case and allowed to testify without
being muzzled by County Counsel, as she was muzzled at her
deposition, she would testify that the County delayed provision
of representation for an unreasonable period of time.3
However, Lipetzky is fettered by her employer, the County,
and by the superior court. She is still underfunded by the
County, and routinely declares conflicts of interest on
“overflow” cases (Dkt. 131; 465:24-28); and the superior court
actually forbids deputy public defenders from making their
services known to out of custody indigent defendants until
after it has had an opportunity to coerce them into taking
deals offered by the court. (Dkt. 125-2; 283:17-290:25.)

Plaintiffs would be eager to cross-examine these witnesses in
front of a jury.
3

31

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 40 of 91

With respect to this practice, the superior court penalizes
indigent defendants who request public defender services by
requiring them to return to court on another date to obtain
representation by counsel, when deputy public defenders are
available in the courtroom to provide legal representation then
and there. (Ibid.)
Here, the Public Defender has stated that many criminal
defendants simply plead guilty at the first appearance to avoid
the inconvenience of having to return to court on another date.
(Id. at 281: last para.) These detainees, therefore, had no
advisement concerning their legal defenses or the profound
consequences of a guilty plea – including potential deportation
or loss of benefits. Further the Public Defender has not
defended the public by asserting its right to defend these
people. For example, in In re Brindle, 91 Cal.App.3d 660, 682
(1979), the California Court of Appeal stated that, “Upon the
arrival of the public defender, the individual inmate or person
being detained or in custody should be advised of his
presence.”)

32

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 41 of 91

IV. Summary Judgment Motions
A) Defendant’s Motion
In spite of this Court’s earlier ruling to the contrary, County
Counsel insisted in its Summary Judgment Motion that a
showing of actual prejudice is required to state a Sixth
Amendment Claim for denial counsel. The County further
insisted at oral argument that this Court would not have
reversed the district court’s earlier rulings if it had not
“misread” [the district court’s] prior orders.” (65:18-23.)
Additionally, the County argued that it did not have a Policy
of denying counsel to indigent detainees for a period of five to
thirteen days and sometimes longer. (Dkt. 142: 466:14-16.)
Here, Defendant implicitly conceded that the delay in
appointment of counsel was between five and thirteen days,
and sometimes longer; however, it implied that an interview by
a paralegal sometime before the second arraignment
appearance established that legal representation was provided
long before the second arraignment hearing. (Dkt. 145: 12:2113:1; 57:1-13; 58:3-5; 73:2-5.)
33

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 42 of 91

County Counsel raised most of these points in two postdiscovery, last-minute declarations, signed by the Public
Defender on November 21, 2017 (Dkt. 131; 460-466), and
December 21, 2017 (Dkt. 141-2; 691-692), respectively –
which contradicted her statements in official County
documents and her deposition testimony. Specifically, in her
December 21, 2017 declaration, she stated that, “I have no
personal knowledge of any instance where a criminal
defendant served additional time in pretrial detention as a
result of my office not staffing the initial appearance of a
defendant.” (Id. 692:13-19.) This statement contradicts her
deposition testimony to the effect that she personally
represented people who had spent up to an additional two
weeks in jail as a result of the Policy. (Dkt. 125-2; 307:23-12.)
It also contradicts the factual basis for her statement in an
official County document where she said, with respect to
providing representation at the first appearance, where she
states that, “By cutting down on the number of people in
pretrial detention and reducing the overall time the
average client spends in pretrial detention, this program
34

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 43 of 91

will free up bed space for the most serious offenders.” (Dkt.
125-2; 326:19-327:3.) In other words, “pretrial detention and
overall time the average client spends in pretrial detention”
would be reduced only if representation at the first appearance
facilitated these outcomes.
Also, her statement that there was no written Policy in her
November 21, 2017 declaration, where she stated that,
“Contrary to Plaintiffs’ allegations, my office never had a
written policy of withholding representation to indigent, incustody criminal defendants at their first appearance,” directly
contradicts her written description of the Policy in an official
County document (Dkt. 295-2; 295:4-296-9), as well as her
description of the Policy in the declaration itself. (461:8-18).
Additionally, her justification for the delay in the November 21,
2017, declaration directly contradicts her testimony that the
delay was due to the superior court setting the second
arraignment date, as opposed to conflicts of interest or
underfunding. (349:19-350:10.)

35

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 44 of 91

B) Plaintiffs’ Motion
1) The First Appearance in a California Court
is a Critical Stage of the Proceedings
Plaintiffs complaint, as amended, alleges that the first
appearance in a California court is a “critical stage” of the
proceedings. (Dkt. 91; 644:20-21.) Plaintiffs further proved
that the first appearance in a California Court is a “critical
stage” of the proceedings because the state court is required to
afford criminal defendants an opportunity to enter a plea at
their first appearance in court. People v. Figueroa, 11
Cal.App.5th 665, 677 (2017). Plaintiffs also demonstrated that
the right to enter a plea is prerequisite to triggering the
significant right to a preliminary hearing within ten court days
(Pen. § 859b) and the significant right to a trial within 60
calendar days (Pen. § 1382).

2) Defendant’s Policy Delayed Provision of
Counsel for an Unreasonably long Period of
Time
Plaintiffs demonstrated that the County delayed
representation for an unreasonable period of time through the
extensive list of potential harms to an unrepresented criminal
36

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 45 of 91

detainee articulated in Professor Boruchowitz’s report. (Dkt.
125-2; 355-371.) Plaintiffs further demonstrated the
unreasonableness of the delay through statements made by
the Public Defender attesting to the fact that the Policy
resulted in a very large percentage of criminal detainees
unnecessarily spending an additional one to two weeks in jail
(Dkt. 125-2; 298:12-23; 299; 346) at great County expense. (Dkt.
125-2; at 296:19; 299:II; 300:13-23; 303:7-304:20; 324:4-13;
325 [Expected Outcomes]; 329: [The Solution]; 330:11-25;
331:B; 333: [Expected Savings].) Plaintiffs further showed,
through the statements of the Public Defender, that pretrial
criminal defendants risk losing their jobs, housing, and
children due to this prolonged unnecessary incarceration. (Id.
at 304:1-25; 295-96.) And, of course, Plaintiffs showed that
the delay violated California’s statutory speedy trial scheme as
well as California Government Code section 27706, which
requires that the Public Defender provide representation at “all
stages” of the proceedings, not just critical stages.

37

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 46 of 91

C) Magistrate Judge’s Ruling on Summary
Judgment
The magistrate judge ruled that,
[O]n the record before the Court,
Plaintiffs cannot prevail based on (1) a
per se rule of when counsel should be
appointed, (2) a theory of systemic
deficiency based on a generally applicable
policy of delay, or (3) a theory that
deliberate inaction or indifference itself
violates the Sixth Amendment without
need to consider the specific
circumstances of Plaintiffs’ own
appointment of counsel.
(Dkt. 145; 51:18-22.)
The magistrate judge further held that appointment of
counsel for the named Plaintiffs occurred within a reasonable
period of time in spite of acknowledging that there “is no
evidence aside from Coker’s opinion as to how much time
is reasonable for a public defender’s office to resolve
conflicts of interest in a case like Wade’s.” (Id. at 56:1112.) Here, the magistrate judge accepted the self-serving,
factually unsupported hypotheticals posed to Defendant’s
expert as fact, knowing that conflicts of interest and funding
problems had nothing to do the Public Defender’s failure to
38

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 47 of 91

provide detainees with legally mandated representation by
counsel until the second arraignment date.
Similarly, the magistrate judge found that waiting twelve
days to appoint counsel for John Farrow was reasonable in
spite of the fact that it determined that, “there is essentially
no evidence in the record explaining a reason for the
longer delay of twelve days between attachment of his
right to counsel and Martin’s assignment to represent
him.” (Id. at 56:19-57-13). Here, the district court found that
the fact that Mr. Farrow was interviewed by a paralegal during
the twelve-day interim rendered the delay reasonable (Ibid),
contradicting its own ruling, where it stated,
To be clear, in reaching this
determination, the Court considers only
what conclusions can be drawn from the
record available, and does not purport to
hold that a four- or twelve-day delay is
presumptively reasonable, or that an
interview by a paralegal before counsel is
appointed can necessarily substitute
under the Sixth Amendment for providing
an attorney.
(Id. at 59:22-27.)

39

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 48 of 91

Additionally, the district court stated that it had evaluated
the possibility of (1) “a theory of systemic deficiency based on a
generally applicable policy of delay,” and (2) “a theory that
deliberate inaction or indifference itself violates the Sixth
Amendment.” Id. at 29. The first question was appropriate, as
it is the only question posed by this Court. Further, other
courts have held that in cases alleging systemic deficiencies,
case by case, piecemeal analysis is inappropriate. See, Church
v. Missouri, 268 F.Supp.3d 992 (2017) (reversed and remanded
on Eleventh Amendment grounds in Church v. Missouri, 913
F.3d 736); Tucker v. State, 162 Idaho 11 (2017); Kuren v.
Luzerne Cty., ––– Pa. ––––, 146 A.3d 715, 718 (2016); and
Hurrell–Harring v. State, 15 N.Y.3d 8, 904 N.Y.S.2d 296 (2010);
Public Defender v. State, 115 So.3d 261 (2013).
The consideration of the second question posed by the
district court – “a theory that deliberate inaction or
indifference itself violates the Sixth Amendment” –
however, reflects a fundamental misunderstanding of
Plaintiffs’ theory of liability because Plaintiffs never alleged

40

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 49 of 91

that “deliberate indifference” would result in liability in the
absence of an underlying constitutional violation.
With respect to the legitimate question, however, the
magistrate judge did not actually consider “a theory of
systemic deficiency based on a generally applicable policy of
delay,” or whether “appointing counsel five to thirteen days
and ‘sometimes longer’ after the right attaches complies with
the ‘reasonable time’ requirement articulated in Rothgery.”
Rather, it skirted the question posed by this Court by
concluding, in spite of Defendant’s statements to the
contrary, that the Policy did not exist. (Dkt. 145; 50:4-9.)
The district court supported this transparently erroneous
claim by implicitly ruling that perfunctory visits by paralegals
qualify as representation by counsel under the Sixth
Amendment, stating,
The totality of the circumstances,
however, is not limited to merely the
length of the delay. In Farrow’s case, the
Public Defender’s Office dispatched
a paralegal to meet with Farrow and
inquire about his case on the next
business day after his first court
appearance, which, due to the long
weekend, was four calendar days later.
41

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 50 of 91

The paralegal completed a report of
the interview on a form that included
sections for medical or psychiatric
history, bail information or “general
comments,” and case notes “re case
progress, problems, settlement,”
among other topics.
(Dkt. 145; 56:28-57-13.)
Here, there are two options: 1) Paralegals did not provide
legal representation – in which case the paralegal visits should
not have entered into the district court’s analysis because no
representation by counsel was provided; and 2) paralegals did
provide representation by analyzing complex issues, “such as
mental health concerns, injuries that needed to be
documented, misidentity, or the need to preserve evidence that
could be lost or destroyed,” in addition to evaluations of
psychiatric history, case progress, problems, and “settlement,
among other topics” – in which case the paralegals did provide
representation, leading to the conclusion that the paralegals
and the Public Defender are guilty of the criminal offense of
practicing law without a license pursuant to California
Business and Professions Code section 6126.

42

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 51 of 91

This conclusion is bolstered by the fact that the paralegal
advised Plaintiffs to sign a Penal Code section 977 waiver,
waiving their right to personally appear in court, which they
signed. (Dkt. 131-2; 459.) The paralegal also advised Plaintiffs
to sign medical and psychiatric records release forms, which
they did. (Id. at 458.)
Whether or not the paralegal was illegally practicing law on
behalf of the County, it was totally inappropriate for the
district court to equate a visit by a paralegal with
representation by counsel under the Sixth Amendment, much
less to implicitly condone the unlicensed practice of law; and it
was unethical for the County to suggest to the district court
that it should prevail on summary judgment due to facts that
demonstrate that its paralegals were engaged in the
unlicensed practice of law. Here, the paralegals discussed
such things as settlement with Plaintiffs, and directed them to
waive important rights, before any attorney-client relationship
had been formed. Once this paralegal “factor” is removed from
the district court’s “totality of the circumstances” test, there is
absolutely no basis upon which the district court could have
43

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 52 of 91

ruled in Defendant’s favor with respect to either Plaintiff, but
especially John Farrow.
Ultimately, the district court said that it was considering
the “totality of the circumstances”; but it ignored most of the
circumstances, including the fact that: (1) a rational jury
could find that the delay was unreasonable based upon the
Public Defender’s statement that all indigent defendants had
to wait in jail for a week or two to be represented by counsel,
and that only at that time would they be able to apply for bail
or recognizance release (Dkt. 125-2; 298:12-23; 299; 346); (2)
it ignored that a rational jury could find the delay
unreasonable on the basis of any of the factors articulated by
Professor Boruchowitz showing that the delay was
unreasonable to everyone subjected to the Policy, much less
all of the factors cited by Professor Boruchowitz showing that
the delay was unreasonable (Dkt. 125-2; 355-371); (3) the
district court ignored the negative inference that should be
drawn from the County’s failure to provide any evidence
showing that the delay was reasonable, including its failure to
introduce evidence concerning “broad topics like, for example,
44

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 53 of 91

logistical challenges to appointing counsel, processes for
resolving conflicts and caseload constraints, and accepted
practices and timelines in other jurisdictions”; and (4) a
rational jury could find that the delay was unreasonable based
upon Coker’s testimony, where he states that he is aware of
how other public defender offices around the state operate and
that none of them bifurcate arraignments like Contra Costa
County. (Dkt. 125-2; 413:15-414:7; 408:9-24; 420:1-421:7.)
In granting Defendant’s Summary Judgment Motion, the
district court made the shocking statement that,
To be clear, in reaching this
determination, the Court considers only
what conclusions can be drawn from the
record available, and does not purport to
hold that a four- or twelve-day delay is
presumptively reasonable, or that an
interview by a paralegal before counsel
is appointed can necessarily
substitute under the Sixth Amendment
for providing an attorney. (Emphasis
added.)
(Dkt.145; 59:22-26.)
First, this statement acknowledges that the counsel was not
appointed prior to the paralegal's discussion with Plaintiffs
concerning mental health issues, preservation of evidence, and
45

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 54 of 91

waiver of medical confidentiality and the right to appear in
court; and, second, it entertains the possibility that a visit by a
paralegal working for counsel who does not represent the
client might “substitute under the Sixth Amendment for
providing an attorney.” Obviously, this is an absurd
proposition.
However, the district court clearly based its rulings on the
summary judgment motions on the Public Defender’s lastminute declarations reference to a paralegal substituting
under the Sixth Amendment for an attorney. During oral
argument on the summary judgment motions, for example, the
following colloquy took place between counsel for Plaintiffs and
the district court:
Mr. Martin: The discussion by Mr. Coker
is pure fantasy about what process was
engaged in to determine the length of the
delay, because the public defender stated
during her deposition, and has repeatedly
stated in its moving papers that the
public defender had absolutely no input
in determining the length of the delay. So
it’s not like, gee, we need to figure out
this conflict.
The court: determining the length of
delay, I don’t understand what you mean
46

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 55 of 91

by that. Determining the length of the
court delay, I understand that. But the
length of the time before which counsel
has identified and notified, they obviously
have a role in that.
Mr. Martin: They do, your honor.
However, this Policy applied to the cases
that they themselves represented
defendants on. So if the public defender
is coming into the case, there’s no
conflict. They still waited until the
second court date to provide
representation, and Ms. Lipetzky was
very clear about that during her
deposition.
The court: Absolutely false, actually.
Mr. Martin: I’m sorry?
The court: That’s wrong. She said that –
and there’s lots of evidence in the record
that even if there was a court appearance
“x” days out, that part of the policy was
that people would meet with their clients
before the court date.
In other words, the district court’s statement, “Absolutely
false, actually,” can be true, actually, only if the district
court equated a visit by a paralegal (i.e, the “people” he
mentions) with representation by counsel under the Sixth
Amendment. Here, the district court is unquestionably

47

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 56 of 91

equating paralegal visits with legal representation by
counsel under the Sixth Amendment.
Additionally, the portion of the district court’s opinion
stating that, “The only policy actually supported by the record
is that counsel was provided “sometime between” the first
court appearance and the second court appearance,” (Dkt.
145; 50:10-15) confirms that the district court equated a visit
by an unlicensed “paralegal” with legal representation by
counsel, as no other people visited public defender clients
while they languished in jail without bail or the opportunity to
apply for bail for five to thirteen days, and sometimes longer.
Indeed, the Public Defender has stated that poor people
charged with crimes had to wait in jail for a period of
between seven and fourteen days before they would be
represented by counsel. (Dkt. 125-2; 295-296-9.)
The district court further stated,
Both parties seek summary judgment on
Plaintiffs’ claim under 42 U.S.C. § 1983
that the County failed to honor their right
to counsel under the Sixth Amendment of
the United States Constitution. The
parties agree that the Ninth Circuit’s
Oviatt decision describes the appropriate
48

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 57 of 91

framework for a claim for failure to act to
preserve a constitutional right. That case
held that a plaintiff bringing such a claim
under § 1983 “must establish: (1) that he
possessed a constitutional right of which
he was deprived; (2) that the municipality
had a policy; (3) that this policy ‘amounts
to deliberate indifference’ to the plaintiff’s
constitutional right; and (4) that the
policy is the ‘moving force behind the
constitutional violation.’ “Oviatt, 954 F.2d
at 1474 (quoting City of Canton v. Harris,
489 U.S. 378, 389–91, 109 S.Ct. 1197,
103 L.Ed.2d 412 (1989) ). The analysis
here both begins and ends with the
first element: whether Plaintiffs were
deprived of a constitutional right.
(Emphasis added.)
(Dkt. 145; 45:2-12.)
In addressing this standard, the district court stated that
the analysis begins and ends with the first element. However,
the district also ruled that there was no Policy (element two);
and falsely concluded that Plaintiffs’ implicitly agreed that
there was no “constitutional violation,” by asserting that
Defendant was deliberately indifferent to Plaintiffs’ Sixth
Amendment right to counsel (element three). This analysis,
however, ignores the fact that both denial of the
“constitutional right” (element one) and “deliberate
49

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 58 of 91

indifference” (element three) are required elements of the
Oviatt test. If Plaintiffs negated element one by proving
element three the rule would be absurd. Furthermore, if
Plaintiffs had neglected the “deliberate indifference” element of
the claim, the district court would have pounced on that
deficiency as a convenient means to dispose of the case.

V. SUMMARY OF ARGUMENT
The Public Defender wrote that, “In Contra Costa County,
poor people accused of criminal offenses spend up to two
weeks in custody just waiting to be represented by an
attorney.” (Dkt. 125-2; 295-296-9.) The moral and legal
abomination stemming from that fact is what this case is
about. Thousands of presumptively innocent poor people
accused of criminal offenses, over the course of decades, did
spend up to two weeks in custody just waiting to be
represented by an attorney, inevitably resulting in devastating
consequences to many of them.
This Court stated, “We … remand for the district court to
consider whether appointing counsel five to thirteen days and
50

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 59 of 91

‘sometimes longer’ after the right attaches complies with the
‘reasonable time’ requirement articulated in Rothgery.” Farrow
v. Lipetzky, 637 Fed.Appx 986 (2016). However, the district
court did not attempt to comply with this mandate. Rather, it
irrationally concluded that there was no Policy of delaying
representation, in spite of the Public Defender’s many
statements to the contrary. (Dkt. 145; 50:10-15.) Indeed, the
district court did not even mention the Public Defender’s
statements in its analysis.
Ultimately, the district court gutted Plaintiffs’ Sixth
Amendment claim by declaring that there was no Policy of
withholding representation for five to thirteen days, and
sometimes longer. Aware, however, that this Court might
disagree with the implicit determination that a visit by a
paralegal constitutes representation by counsel – the district
court went on to claim that even if there were such a Policy of
withholding representation, Plaintiffs could not prevail in the
absence of evidence concerning “broad topics like, for example,
logistical challenges to appointing counsel, processes for
resolving conflicts and caseload constraints, and accepted
51

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 60 of 91

practices and timelines in other jurisdictions.” (Dkt. 145; 50,
fn. 16.) In this regard, the district court did not consider the
“totality of the circumstances,” but instead employed a
previously unstated “accepted practices” test that placed
Defendant’s burden on Plaintiffs and excluded all other
evidence.
Here, the district court also subscribed to the fallacy that
the County’s Policy of automatically delaying provision of
counsel for five to thirteen days, and sometimes longer, was
based upon logistical challenges, processes for resolving
conflicts and caseload constraints, when the County itself has
been emphatic that it “had nothing to do” with the length of
the delay between arraignment hearings, (68:18-69-6) and
further admitted that it did not provide representation until
the second arraignment hearing in all cases, including those
where there was no conflict of interest. (Dkt. 125-2; 295:2296:9.)
Moreover, the district court was flatly wrong: A
reasonable jury could find that the County delayed provision
of counsel for an unreasonably long period of time based
52

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 61 of 91

upon the overwhelming evidence provided by Plaintiffs.
However, it could not find that the delay was reasonable in
the absence of evidence justifying the Policy, “broad topics
like, for example, logistical challenges to appointing counsel,
processes for resolving conflicts and caseload constraints, and
accepted practices and timelines in other jurisdictions.” Given
that Defendant had the burden of justifying its Policy and did
not justify it, the District Court, according to its own logic,
mistakenly granted Defendant’s Motion for Summary
Judgment when it should have granted Plaintiffs’ Motion for
Summary Judgment.

VI. ARGUMENT
I.

Standards of Review

A. Summary Judgment
In George v. Edholm, 752 F.3d 1206, 1214 (9th Cir.
2014), the Ninth Circuit Court of Appeals stated:
We review de novo the district court’s
grant of summary judgment. We must
determine, “viewing the evidence in the
light most favorable to the nonmoving
party, whether genuine issues of material
fact exist.” Id. We will affirm only if no
53

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 62 of 91

“reasonable jury viewing the summary
judgment record could find by
a preponderance of the evidence that the
plaintiff is entitled to a favorable
verdict.” If a rational trier of fact could
resolve a genuine issue of material fact in
the nonmoving party’s favor,” summary
judgment is inappropriate.” [C]redibility
determinations, the weighing of the
evidence, and the drawing of legitimate
inferences from facts are jury functions,
not those of a judge.” (Internal citations
omitted.)
B. Denial of Constitutional Right

Through Inaction

In Oviatt By and Through Waugh v. Pearce, 954 F.2d 1470
(1992) the Ninth Circuit Court of Appeals stated:
A local governmental entity is liable
under § 1983 when “action pursuant to
official municipal policy of some nature
cause[s] a constitutional tort.” Moreover,
a local governmental body may be liable if
it has a policy of inaction and such
inaction amounts to a failure to protect
constitutional rights. [¶] To impose
liability on a local governmental entity for
failing to act to preserve constitutional
rights, a section 1983 plaintiff must
establish: (1) that he possessed a
constitutional right of which he was
deprived; (2) that the municipality had a
policy; (3) that this policy “amounts to
deliberate indifference” to the plaintiff’s
constitutional right; and (4) that the
policy is the “moving force behind the
54

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 63 of 91

constitutional violation.” (Internal
citations omitted.)
C. The District Court’s Totality of the

Circumstances Test

The District Court stated:
In its previous order, this Court indicated
that it would look to “the totality of the
circumstances” to determine whether
delay in providing counsel was
constitutionally unreasonable, taking into
account “the time needed to prepare for
an upcoming critical stage,” but not
limiting the analysis to that factor.
(Dkt. 145; 47:16-19.)
D. Plaintiffs’ First Appearance in a

California Court was a “Critical Stage”
of the Proceedings
Plaintiffs complaint, as amended, alleges that the

they have an absolute right to enter a non-guilty plea at
their first appearance. (Dkt. 91; 644:20-21.) Plaintiffs
further proved that the first appearance in a California Court
is a “critical stage” of the proceedings because the state court
is required to afford criminal defendants an opportunity to
enter a plea at their first appearance in court. People v.
Figueroa, 11 Cal.App.5th 665, 677 (2017). Additionally, the
55

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 64 of 91

right to enter a plea is prerequisite to triggering the significant
right to a preliminary hearing within ten court days (Pen. §
859b) and the significant right to a trial within 60 calendar
days (Pen. § 1382).
In Hovey v. Ayers, 458 F.3d 892, 901-02 (9th Cir. 2006),
this Court stated,
We have distilled a three-factor test for
determining what constitutes a
critical stage. We consider whether: (1)
“failure to pursue strategies or remedies
results in a loss of significant rights,” (2)
“skilled counsel would be useful in
helping the accused understand the legal
confrontation,” and (3) “the proceeding
tests the merits of the accused’s
case.” Menefield v. Borg, 881 F.2d 696,
698–99 (9th Cir.1989). The presence of
any one of these factors may be sufficient
to render a stage of the proceedings
“critical.” Cf. *902 Ash, 413 U.S. at 313,
93 S.Ct. 2568 (noting that the relevant
inquiry is “whether the accused require[s]
aid in coping with legal problems or
assistance in meeting his adversary.
Here, the right to enter a plea lies at the heart of this
Court’s “critical stage” test because nothing could be more
significant to an innocent citizen than his right to declare his
innocence through a plea of not guilty and demand a speedy
56

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 65 of 91

preliminary hearing and trial to assure his liberty before
protracted custody causes him to lose his job, his children, his
housing, and his good name. Indeed, denying the criminal
defendant his right to enter a plea, by depriving him of the
skilled counsel necessary to inform him of his statutory
speedy trial rights, is a deliberate end run on California’s
statutory speedy trial scheme and California Supreme Court
precedent, both of which are adamant that criminal detainees
are entitled to a preliminary hearing and trial “at the earliest
possible time.” (Pen. Code, § 1050, et seq.)4
For example in Sykes v. Superior Court, 9 Cal.3d 83, 88
(1973), the California Supreme Court stated that,
(O)ur Legislature has made provision for
‘a speedy and public trial’ as one of the
fundamental rights preserved to a
defendant in a criminal action. (s 686,
If this Court is unsure about whether a California criminal
defendant has a right to enter a plea at the first appearance,
whether he is entitled to provision of counsel at the first
appearance under California law, or whether California’s
statutory speedy trial scheme requires a preliminary hearing
and trial as soon as possible, it can certify the matter to the
California Supreme Court for guidance on these issues of state
law. Gradillas v. Lincoln General Ins. Co., 792 F.3d 1050 (9th
Cir. 2015).
4

57

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 66 of 91

subd. 1.) The policy behind the right to a
speedy trial is expressed in section 1050
which states, ‘The welfare of the people
of the State of California requires
that all proceedings in criminal cases
shall be set for trial and heard and
determined at the earliest possible
time, and it shall be the duty of all
court and judicial officers and of all
prosecuting attorneys to expedite
such proceedings to the greatest
degree that is consistent with the
ends of justice.’ (Internal citations
omitted.)
As such, Defendant’s Policy of failing to appear at the first
court appearance and for the period of five to thirteen days,
and sometimes longer, was unreasonable as a matter of law
because the first appearance in a California court is a “critical
stage” of the proceedings. See, Hovey v. Ayers, 458 F.3d 892,
901-02 (9th Cir. 2006); People v. Cox, 193 Cal.App.3d 1434,
1440 (1987).
E. The County had a Policy of Delaying

Provision of Counsel for a Period of
Five to Thirteen days, and Sometimes
Longer
The Public Defender’s statements that indigent people
waited one to two weeks for representation without is
sufficient in itself for a reasonable jury to conclude that the
58

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 67 of 91

County maintained a Policy of denying representation for
seven to fourteen days.
Moreover, Defendant’s contradictory, last-minute
declaration does not create a material issue of fact that would
preclude summary judgment in Plaintiffs’ favor. Lopez v.
General Motors Corp., 697 F.2d 1328, 1333 (9th Cir. 1983),
“We do not take kindly to counsel’s having [the
defendant] attempt ... to repudiate or contradict her
sworn deposition testimony. The declaration created no
genuine issue of fact.”
Therefore, this Court should rule in Plaintiffs’ favor
concerning the existence of the Policy based upon the only
competent evidence in the record, which is: (1) the County’s
repeated descriptions of the Policy in official County
documents and the Public Defender’s deposition testimony; (2)
Plaintiffs’ experiences; and (3) the Public Defender’s Letter to
the presiding judge of the superior court describing the Policy.
However, if this court considers the County’s self-serving,
contradictory, last-minute declaration, there is at a minimum
a material issue of fact precluding summary judgment in
59

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 68 of 91

Defendant’s favor on this element because the trier of fact
would be required to make a credibility determination
concerning which of the Public Defender’s conflicting
statements it should believe; and credibility determinations
are inappropriate on summary judgment. George v.
Edholm 752 F.3d 1206, 1214 (9th Cir. 2014).
F. The Delay in Providing Representation by

Counsel was Unreasonable

This Court, “[R]emand[ed] for the district court to consider
whether appointing counsel five to thirteen days and
‘sometimes longer’ after the right attaches complies with the
‘reasonable time’ requirement articulated in Rothgery.” Farrow
v. Lipetzky, 637 Fed.Appx 986 (2016). In response, the district
court devised its own “totality of the circumstances” test,
which did not elucidate any real standard.
Through Professor Boruchowitz’s scholarly and informed
report, however, Plaintiffs identified 55 reasons showing that
the County delayed provision of counsel for an unreasonable
period of time. (Dkt. 125-2; 355-371.) However, the district
court erroneously excluded Professor Boruchowitz’s opinion
60

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 69 of 91

and did not give any weight to the “totality of the
circumstances” upon which he based his opinion.
Plaintiffs further provided the district court with the
County’s own admissions concerning: (1) the inability for
indigent defendants to apply for bail or “OR” release without
representation for one to two weeks (Dkt. 125-2; 298:12-23;
299; 346); (2) its admission that “5,500 defendants were
represented at arraignment through the ACER program; of
these between approximately 19 percent and 35 percent were
released on recognizance” (Dkt. 125-2; 313:18-314:4); (3) that
representation at the first appearance, “has resulted in
financial savings to the court and the Sheriff’s Department”
(Id. at 65:11-25); (4) that representation at the first
appearance reduced the pretrial detention population by 50 to
100 defendants each quarter since the program was launched
in 2013” (385:11-19); (5) and that, “Contra Costa County
has one of the highest pretrial detention rates in the
state. In this county roughly 85 percent of the jail population
on any given day is made up of persons who are awaiting
trial.· This is 14 percent higher than the statewide
61

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 70 of 91

average and 24 % higher than the national average”
(352:9-23); (6) the Public Defender’s admission that, “Well,
anytime somebody has to stay in jail longer than
necessary, they risk losing jobs, losing their housing,
losing custody of their children, those sorts of things.”
(304:22-25); and Plaintiffs further proved that, (7) California
criminal defendants are entitled to a preliminary hearing and
trial at the earliest possible time according to California case
law and statutes (Cal. Pen. Code, § 1050; People v. Martinez,
22 Cal.4th 750 (2000) fn. 1 at 771; (8) that California criminal
defendants are entitled to enter a plea at their first court
appearance (People v. Figueroa, 11 Cal.App.5th 665, 677
(2017); (9); that all detainees who received credit for time
served sentences at their first appearance in court had spent
up to an additional two weeks in custody as a result of the
Public Defender’s failure to provide representation during that
period (Dkt. 125-2:304:1-8); (11) that Defendant’s expert
testified that all public defender offices do things pretty much
the same way, that he is aware of the practices of public
defender offices throughout the state, and he is unaware of
62

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 71 of 91

any other county engaging in a bifurcated arraignment process
(Dkt. 125-2; 420:1-421:7; 420:1-421:7); (12) the County
stated back in 1984 that it could provide representation in
three court days (Dkt. 142-1; 506); (13) the Public Defender
stated that, “With just three attorneys and two paralegals, the
Public Defender’s Office would be able to fully staff all of the
arraignment courts in the county – at significant savings to
the Sheriff’s Office and the courts.” (Dkt. 125-2; 296:12-20.)
Thus, Plaintiffs provided an overwhelming record upon
which a reasonable jury could determine that the delay was
unreasonable under the totality of the circumstances.
However, Defendant did not offer any justification for the
Policy of delaying representation; and the magistrate judge
even acknowledged that there was no evidence concerning how
long it would take to sort out conflicts in a case like Wade’s
other than Coker’s factually unsupported opinion. (Dkt. 145;
56:11-12.) And the magistrate judge stated that, [T]here is
essentially no evidence in the record explaining a reason
for the longer delay of twelve days between attachment of

63

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 72 of 91

the right to counsel and Martin’s assignment to represent
him. (Dkt. 145; 56:19-21.)
Nevertheless, the district court ruled that,
The lack of evidence regarding broad
topics like, for example, logistical
challenges to appointing counsel,
processes for resolving conflicts and
caseload constraints, and accepted
practices and timelines in other
jurisdictions would still leave the finder of
fact without sufficient facts to justify a
conclusion that the policy, on its face,
was constitutionally unreasonable.
(Dkt. 145; 50, fn. 16.)
Given that Plaintiffs proved the unreasonableness of the
delay with specific examples of why the delay was
unreasonable in Contra Costa County, as well as why it was
unreasonable pursuant to California and national standards,
and Defendant failed to adduce any evidence showing
that it was reasonable, Plaintiffs are entitled, upon de novo
review, to a determination that the delay imposed by
Defendant’s Policy was unreasonable as a matter of law.
See, Celotex Corp. v. Catrett, 477 U.S. 317, 331 (1986).

64

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 73 of 91

Furthermore, if a justification for the Policy existed,
Defendant could have asked Coker, or any other Public
Defender in the state, “to consider whether appointing counsel
five to thirteen days and ‘sometimes longer’ after the right
attaches complies with the ‘reasonable time’ requirement
articulated in Rothgery,” which is the question posed by this
Court. However, the County prevented Coker from considering
this question. Therefore, this Court should conclude that
Coker would have opined that the County delayed provision of
counsel for an unreasonable period of time given the
opportunity to address that question. As this Court stated in
Singh v. Gonzales, 499 F.3d 1019, 1024 (9th Cir. 2007)
(superseded in non-relevant part by statute) “When a party
has relevant evidence in his control which he fails to
produce, that failure gives rise to an inference that the
evidence is unfavorable to him.”
In short, Coker’s report and deposition testimony establish
that the Contra Costa County Public Defender’s Policy of doing
nothing – other than dispatching a paralegal of unknown
qualifications, to ask unknown questions, and take unknown
65

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 74 of 91

actions – for five to thirteen days, and sometimes longer,
resulted in an unreasonable delay in provision of counsel in
comparison with the policies and practices of the San Diego
Public Defender’s Office, which tends to do everything pretty
much the same way as public defenders in other California
counties. (Dkt. 125-2; 420:1-421:7.)
Therefore, given that Defendant failed to provide any
evidence establishing that the delay in providing counsel for
five to thirteen days, and sometimes longer, was reasonable –
and having provided damning testimony from its own expert to
the effect that the delay was unreasonable – summary
judgment should be granted in Plaintiffs’ favor. Celotex Corp. v.
Catrett, 477 U.S. 317, 331 (1986).
Alternatively, Plaintiffs ask this court to find that Plaintiffs
have raised issues of material fact concerning the
reasonableness of the delay, precluding summary judgment in
favor of Defendant.

66

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 75 of 91

G. Deliberate Indifference & Causation
The magistrate judge erroneously stated that,
Plaintiffs also contend that the County
used a policy that allowed for arbitrary
periods of delay in appointment of
counsel, and that this policy of
indifference—rather than, as addressed
above, a policy of a particular length of
delay—itself violated Plaintiffs’ Sixth
Amendment right to counsel, regardless
of the delay (or lack thereof) that Plaintiffs
themselves experienced. See Pls’ MSJ at
18–20. In making that argument,
Plaintiffs implicitly disregard the first
element of the Oviatt test—that Plaintiffs
were deprived of a right—by assuming
that demonstrating a policy of
indifference to the right to timely
provision of counsel would in itself suffice
to show that they were deprived of a
constitutional right.
(Dkt. 145; 50:16-23.)
Here, the district court makes a totally illogical argument
because “demonstrating a policy of indifference to the right to
timely provision of counsel” does not “implicitly disregard the
first element of the Oviatt test—that Plaintiffs were deprived of
a right.” If it did, no one could ever satisfy the Oviatt test
because proof of element three would negate element one; and

67

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 76 of 91

if Plaintiffs did not prove element three, they would fail the
test.
Additionally, Plaintiffs did not contend that (1) “the County
used a policy that allowed for arbitrary periods of delay in
appointment of counsel, and that this policy of indifference—
rather than, as addressed above, a policy of a particular length
of delay—itself violated Plaintiffs’ Sixth Amendment right to
counsel”; (2) did not contend that their Sixth Amendment right
to counsel would be violated regardless of the delay (or lack
thereof) that Plaintiffs themselves experienced; and (3) did not
assume that demonstrating a Policy of indifference to the right
to timely provision of counsel would in itself suffice to show
that they were deprived of a constitutional right.
On the contrary, Plaintiffs proved: (1) that the County used
a Policy that allowed for specific periods delay – i.e., “five to
thirteen days, and sometimes longer” (Dkt. 125-2; 295-296-9);
(2) that they were subjected to delay within this specific period
(Dkt. 134; 542-550); that (3) the County had a Policy of
deliberate indifference to denial of Plaintiffs’ Sixth Amendment
right to counsel (Dkt.142-1; 516:C; 536-537:4; Dkt. 131;
68

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 77 of 91

464:4-9); and that (4) this Policy was the moving force behind
the violation.
In short, Plaintiffs carried their burden of proving all four of
the elements of the Oviatt test. As the magistrate judge
correctly stated,
That case held that a plaintiff bringing
such a claim under § 1983 “must
establish: (1) that he possessed a
constitutional right of which he was
deprived; (2) that the municipality had a
policy; (3) that this policy ‘amounts to
deliberate indifference’ to the plaintiff’s
constitutional right; and (4) that the
policy is the ‘moving force behind the
constitutional violation.’ “ Oviatt, 954
F.2d at 1474 (quoting City of Canton v.
Harris, 489 U.S. 378, 389–91, 109 S.Ct.
1197, 103 L.Ed.2d 412 (1989)).
(Dkt. 145; 45:3-12.)
Ultimately, however, by erroneously stating that Plaintiffs
based their Sixth Amendment claim upon the “deliberate
indifference” prong of the Oviatt test only – to the exclusion of
the other three elements of the test that were also proved – the
magistrate judge erroneously claimed that Plaintiffs asserted
the misguided notion that they could predicate an action upon

69

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 78 of 91

deliberate indifference to a constitutional deprivation that did
not exist.
Finally, the magistrate judge stated that,
Plaintiffs have not presented authority for
the proposition that a criminal defendant
who is in fact provided counsel within a
reasonable period of time after
attachment nevertheless suffers a
deprivation under the Sixth Amendment
if the process by which counsel is
provided lacks safeguards to ensure
timeliness.
(Dkt. 145; 51:14-17.)
Here, again, Plaintiffs never proposed that “a criminal
defendant who is in fact provided counsel within a reasonable
period of time after attachment nevertheless suffers a
deprivation under the Sixth Amendment if the process by
which counsel is provided lacks safeguards to ensure
timeliness.” On the contrary, Plaintiffs have always been
emphatic that they suffered a deprivation under the Sixth
Amendment because they were not provided counsel within a
reasonable time after attachment. (Dkt. 91; 644:27-645:3;
Dkt. 98; 549:20) Further, Plaintiffs have proposed that an
indigent criminal detainee who is denied the right to counsel
70

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 79 of 91

within a reasonable period of time under Rothgery suffers a
constitutional tort regardless of whether he suffered actual
prejudice in his underlying criminal case. See, Carey v.
Piphus, 435 U.S. 247 (1978).
In Carey, the Supreme Court held that constitutional rights
are valuable in and of themselves, without further injury.
Plaintiffs cited Carey for the same proposition: that is, their
constitutional right to counsel under the Sixth Amendment
was violated due to Defendant’s Policy of withholding counsel
for an unreasonable period of time, regardless of whether the
timely provision of counsel would have averted actual
prejudice in their underlying criminal matters. In other words,
the only distinction between Carey and this case is that this
case involves the right to counsel under the Sixth Amendment
and Carey concerned the right to Due Process under the
Fourteenth Amendment.
In any event, the district court’s analysis of Carey detracts
from the question of whether the County’s Policy complied
with the reasonable time provision in Rothgery. To remove this
distraction, Plaintiffs wholeheartedly agree that, “a criminal
71

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 80 of 91

defendant who is in fact provided counsel within a reasonable
period of time after attachment (does not suffer) a deprivation
under the Sixth Amendment if the process by which counsel is
provided lacks safeguards to ensure timeliness.”

V. Reassignment
In Manley v. Rowley, 847 F.3d 705, 712-713 (9th Cir.
2017), this Court stated,
We will reassign a case to a new judge on
remand only under “unusual
circumstances or when required to
preserve the interests of justice.” We need
not find actual bias on the part of the
district court prior to reassignment.
Rather, we consider: (1) whether the
original judge would reasonably be
expected upon remand to have
substantial difficulty in putting out of his
or her mind previously expressed views or
findings determined to be erroneous or
based on evidence that must be rejected,
(2) whether reassignment is advisable to
preserve the appearance of justice, and
(3) whether reassignment would entail
waste and duplication out of proportion
to any gain in preserving appearance of
fairness.” (Internal citations omitted.)
With respect to (1) the magistrate judge’s previously
expressed views, the district court stated at Plaintiffs’ first
appearance on April 12, 2013, that,
72

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 81 of 91

Just looking at it from a practical
perspective, if this Court were to hold
that the initial appearance by
defendant is not only when the right
attaches but a critical stage at which
they must be represented by counsel
on pain of throwing out the
Indictment, Complaint, or
Information, it would mean we’d have
to throw out half the cases in this
courthouse...
The magistrate judge at that point had been briefed on the
relevant law and was later extensively briefed on every case
concerning the issue, through two 12(b)(6) motions, showing
that a violation of the Sixth Amendment right to counsel can
occur in the absence of prejudice, and showing that such an
error does not implicate Strickland v. Washington, 466 U.S.
668 (1984) or United States v. Cronic, 466 U.S. 648 (1984).
Nevertheless, and in spite of overwhelming authority to the
contrary, the magistrate judge was adamant that actual
prejudice was a prerequisite to a claim of denial of the right to
counsel under the Sixth Amendment and dismissed Plaintiffs’
claims accordingly. This “substantial difficulty in putting out
of his mind previously expressed views or findings
determined to be erroneous” led to the first appeal and first
73

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 82 of 91

reversal in this case. Moreover, the district court’s continuing
reference to Strickland and Cronic, as well as factors related to
actual prejudice indicate that he still has not put out of his
mind his previously expressed views and findings.
Therefore, this Court’s first consideration (1) with respect to
reassignment has been met.
On appeal, this court did not determine that the first
appearance in a California court is not a “critical stage” of the
proceedings per se but did decide that it was not a “critical
stage” as then pled. Farrow v. Lipetzky, 637 Fed.Appx 986
(2016). Since then, however, Plaintiffs have amended their
complaint to state that Plaintiffs have an absolute right to
enter a plea at the first appearance, and they have
conclusively established that right with citation to People v.
Figueroa, 11 Cal.App.5th 665, 677 (2017), which states that,
“[T]he court at the arraignment must afford the
defendant the opportunity to enter a plea."
Aware of the change to the pleadings, the district court
erroneously concluded that California criminal defendants do
not have the right to enter a plea at their first appearance in
74

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 83 of 91

court. The district court further stated that it would dismiss
the case based upon its analysis of Heck v. Humphrey, 512
U.S. 477 (1994) if it were shown that the first appearance was
a critical stage of the proceedings based upon the criminal
defendant’s right to enter a plea at that appearance. (Dkt. 145;
9:1-4.)
In this regard, the district court stated that it would not
follow Ninth Circuit precedent stating that denial of counsel at
the critical stage of arraignment is harmless error. Therefore,
the magistrate judge has preannounced his intention to
dismiss again based upon his erroneous interpretation of
Heck, as opposed to the authority of this Court and other
federal circuit courts, if this Court remands based upon a
finding that the first appearance is a critical stage of the
proceedings.
Additionally, as evidenced by the factual record before this
Court and the final opinion of the magistrate judge, the
magistrate judge discounted Professor Boruchowitz’s report
and did not even mention the Public Defender’s
admissions that no representation was provided for one
75

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 84 of 91

to two weeks in its analysis, in favor of Defendant’s lastminute declarations suggesting that an interview by a
paralegal sufficed for legal representation by counsel. Plaintiffs
assert that this suggests that this Court should order
reassignment of the case to (2) preserve the appearance of
propriety.
Also, the last-minute declarations should not have been
considered at all given that they contradicted the County’s
earlier statements and given that the Public Defender could
not, at that point, be cross-examined on the qualifications of
the interviewer, the typical responses received, and whether
the Public Defender ever acted on any information received by
detainees during what would appropriately be described as
“public defender eligibility interviews.” And, significantly,
the magistrate judge implicitly made credibility
determinations to the effect that the Public Defender’s
many admissions concerning the failure to provide
representation for one to two weeks were false based
upon the Public Defender's statements in her eleventhhour declarations that her office “took actions” (i.e.,
76

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 85 of 91

provided representation) related to Plaintiffs' immediate
concerns – without specifying what actions – during the
one to two week period.
This was clearly inappropriate, as the magistrate judge
simply conducted an unauthorized bench trial by affidavit,
supplanting his personal views for that of an impartial jury.
See, Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249–52
(1986); TransWorld Airlines v. American Coupon Exchange,
Inc., 913 F.2d 676, 684–85 (9th Cir.1990) (holding that
credibility determinations at summary judgment are …
inappropriate).
As to element (3), time considerations: If this case is
remanded for trial, a bench trial would not be possible due to
the magistrate’s very clearly shown intention of ruling in
Defendant’s favor, regardless of the facts or the law. Therefore,
a jury trial, which would be far more time consuming than a
bench trial would be inevitable. Moreover, it would be before
this magistrate judge who ignored all of Plaintiffs' evidence in
this case and has exhibited a pattern of inexplicable legal
rulings, as demonstrated by the record in this appeal as well
77

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 86 of 91

as the record of the first appeal, likely due to the belief he
expressed at Plaintiffs' first appearance in his court back in
2013 – that Defendant’s Policy of withholding representation
by counsel for five to thirteen days, and sometimes longer, was
perfectly acceptable.
In this regard, a jury trial before this magistrate judge, who
has prejudged the case, would likely lead to erroneous
evidentiary rulings and further appeals. Consequently, it
would not be time efficient to remand this matter to the same
magistrate judge.

VI. CONCLUSION
Due to the fact that Plaintiffs provided overwhelming
evidence proving (1) a Policy of withholding counsel for a
period of between 5 to thirteen days, and sometimes longer; (2)
that the Policy denied counsel for an unreasonable period of
time; (3) that the unreasonable delay was due to Defendant’s
deliberate indifference; and (4) that this indifference caused
the denial of counsel under the Sixth Amendment and
Rothgery v. Gillespie County, Tex., 554 U.S. 191, 212 (2008),
78

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 87 of 91

this Court should rule that Plaintiffs have proven that
Defendant violated their right to appointment of counsel
within a reasonable period under Rothgery and the Sixth
Amendment.
Plaintiffs further urge this Court to rule that Plaintiffs have
established that the County failed to abide by California
Government Code section 27706 by failing to represent
indigent criminal defendants at “all stages” of the proceedings
as specified by the statute.
Plaintiffs further request declaratory relief, injunctive relief,
and nominal damages.

//

//

//

79

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 88 of 91

To the extent that this Court determines that there are
remaining issues of material fact, or other matter requiring
remand, Plaintiffs request that this Court remand for
determination of those issues, while specifying which elements
have been proven by a preponderance of the evidence, and
order the Presiding Judge of the District Court to reassign the
matter to a different judge.

Dated: June 5, 2019

Respectfully submitted,

CHRISTOPHER ALAN MARTIN
By: /S/ Christopher Alan Martin
CHRISTOPHER ALAN MARTIN

80

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 89 of 91

STATEMENT OF RELATED CASES
There are no related cases pending in this Court.

81

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 90 of 91

CERTIFICATE REGARDING BRIEFING FORM
I, Christopher Alan Martin, hereby certify that the foregoing
brief is proportionately spaced, has a typeface of 14 points and
contains precisely 13,874 words.

Dated: June 5, 2019

82

Case: 19-15152, 06/05/2019, ID: 11321386, DktEntry: 8, Page 91 of 91

CERTIFICATE OF SERVICE

When All Case Participants are Registered for the
Appellate CM/ECF System
I hereby certify that on June 5, 2019, I electronically filed the
foregoing with the Clerk of the Court for the United States
Court of Appeals for the Ninth Circuit by using the appellate
CM/ECF system.
I certify that all participants in the case are registered
CM/ECF users and that service will be accomplished by the
appellate CM/ECF system.
Signature: /S/ Christopher Alan Martin
CHRISTOPHER ALAN MARTIN

83

